<html>
<title> - STILL POST-KATRINA: HOW FEMA DECIDES WHEN HOUSING RESPONSIBILITIES END</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                      STILL POST-KATRINA: HOW FEMA
                          DECIDES WHEN HOUSING
                          RESPONSIBILITIES END

=======================================================================

                                (111-37)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 22, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
49-956 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)




 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)









                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Garratt, David, Acting Deputy Administrator, Federal Emergency 
  Management Agency..............................................     6
Jenkins, III, Rt. Rev. Charles E., Tenth Bishop of the Episcopal 
  Diocese of Louisiana...........................................     6
Rainwater, Paul, Executive Director, Louisiana Recover Authority.     6
Tombar, III, Fred, Senior Advisor to the Secretary for Disaster 
  and Recover Programs, Department of Housing and Urban 
  Development....................................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Pennsylvania.............................    50
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    51

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Garratt, David...................................................    54
Jenkins, III, Rt. Rev. Charles E.................................   114
Rainwater, Paul..................................................   126
Tombar, III, Fred................................................   131

                       SUBMISSIONS FOR THE RECORD

Garratt, David, Acting Deputy Administrator, Federal Emergency 
  Management Agency:.............................................
      Responses to questions from the Subcommittee...............    67
      Responses to questions from Rep. Norton, a Representative 
        in Congress from the District of Columbia................   105
Tombar, III, Fred, Senior Advisor to the Secretary for Disaster 
  and Recover Programs, Department of Housing and Urban 
  Development:...................................................
      Response to question from Rep. Norton, a Representative in 
        Congress from the District of Columbia...................   134
      Responses to questions from the Subcommittee...............   135

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 STILL POST-KATRINA: HOW FEMA DECIDES WHEN HOUSING RESPONSIBILITIES END

                              ----------                              


                          Friday, May 22, 2009

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We want to welcome today's witnesses.
    Congress had scheduled to be in session but recessed early 
because it finished its business yesterday. But we thought this 
hearing was of great importance and that we should not postpone 
it. We recognize that it poses some inconvenience to the 
Ranking Member, who will have to leave early. As a Federal 
official, it has to do with a subject not unrelated to the 
subject before us, FEMA and hurricanes and what to do about 
them before and after, but we are going to proceed because of 
disturbing reports that need to be cleared up by this Committee 
and need to be cleared up in short order.
    So we will address today the Federal Emergency Management 
Agency and Department of Housing and Urban Development, how 
these two agencies will resolve still-outstanding issues that 
the Federal Government faces in providing housing to families 
whose homes were destroyed or damaged by Hurricane Katrina.
    The hurricane made landfall August 29th, 2005, and proved 
to be the costliest natural disaster in American history. The 
storm had massive physical impact on the land, affecting 90,000 
square miles, an area the size of Great Britain. Under the 
authority granted to the President in the Stafford Act, the 
President declared a major disaster in the States of Louisiana 
and Mississippion the date the storm made landfall.
    Approximately 143,000 families were housed in FEMA-provided 
travel trailers and mobile homes as a result of Hurricane 
Katrina. Since this peak, most families were transitioned to 
more permanent housing. As of May 14th, 2009, approximately 
4,052 temporary housing units continue to be in use in 
Louisiana. FEMA has also provided $7.8 billion in financial 
assistance to about 2.4 million households through FEMA's 
Individuals and Households Program. FEMA's housing program 
formally ended on May 1st, 2009.
    The housing program for Hurricane Katrina was unusually 
long and involved, as far more individuals needed housing 
assistance because of the unusually catastrophic nature of the 
disaster. To address ongoing housing needs of individuals who 
could not return to their homes in the Gulf Coast, FEMA used 
its authority under Section 408 of the Stafford Act and the 
Disaster Relief Fund and delegated authority to HUD to 
implement the Disaster Housing Assistance Program, or DHAP.
    DHAP is a pilot program to provide temporary long-term 
housing and related services for families that continue to need 
housing as a result of Hurricane Katrina. Unlike FEMA's rental 
assistance program, which provides payments directly to 
residents who pay landlords, DHAP worked through public housing 
agencies, providing rental payments directly to landlords.
    The DHAP program began on December 1st, 2007, and served 
36,816 families. The program was scheduled to end on March 1st, 
2009. However, Congress appropriated $85 million to transition 
program families in DHAP, extending the last eligible payments 
to August 2009. Initially, 24,343 families were assisted 
through this transitional program. HUD estimates that 
approximately 18,000 families remain in the program as of May 
2009.
    The situation we now face was both predicted and 
predictable. It has been clear from the recent FEMA hearings 
that those left in disaster housing will be the most vulnerable 
members of society, who may have had prior difficulties that 
have been exacerbated by the disaster. While these programs 
have formally ended, we still have families without a long-term 
housing solution.
    In order to facilitate an orderly transition, I wrote to 
the then-Administrator of FEMA last July, requesting that the 
March 1st, 2009, deadline be extended and announced 
immediately. While FEMA did extend the program three times, in 
each instance the extensions were announced at the last minute, 
causing unnecessary stress and hardship.
    My fear last summer was that this would be repeated as the 
March 1st, 2009, deadline created by the Bush administration 
approached and that this date would essentially push this 
program to the new administration to scramble to address this 
issue. That is exactly what has happened. The Obama 
administration was compelled to announce the March 2009 
extension.
    Even with this deadline, it appears that many of the most 
vulnerable citizens still in disaster housing have not had 
enough time to find permanent solutions to their housing needs, 
or if they have--and have not found those needs, then we need 
to know why. Is it them and their refusal to accept the 
available housing? We can't always have the housing we want. Or 
is it the failure of the government? And this Committee is 
open, because we want to resolve this issue, not point fingers 
one way or the other.
    The testimony we will receive today paints a conflicting 
picture. The testimony of our Federal witnesses and our State 
witnesses describe a much improved situation on the ground in 
the Gulf from what we have seen in the past. However, other 
testimony and recent disturbing media reports, including some 
front-page articles, indicate that there are families without a 
long-term housing solution facing eviction from disaster 
housing. In today's hearing we hope to ascertain whether these 
are isolated cases that are symptomatic of broader issues still 
outstanding after the issue or what the cause is.
    The Subcommittee does not want to be understood, however, 
to say that FEMA should provide housing assistance 
indefinitely. The statute does not allow HUD to do that. It is 
also unacceptable, however, to turn people out of their 
disaster housing with nowhere to go.
    Ultimately, it is also required--and this is important--
that residents accept available housing, even if it is not in 
the location they desire. Many Americans are, as I speak, 
living in hotels, without jobs, where they do not desire. Only 
rich people can live where they desire. So it is important that 
residents accept the available housing, even if they prefer the 
temporary housing or other housing.
    We have to resolve this issue. We cannot allow people to be 
put out in the street, but we will not allow people to stay 
where they are simply because they prefer it that way.
    FEMA and HUD have developed new and innovative housing 
programs to address the unprecedented disaster housing needs. 
However, these programs did provide housing solutions for the 
vast majority of families left without housing by Hurricane 
Katrina. The Subcommittee looks forward to hearing the 
testimony of today's witnesses, addressing once and for all--
let's hope this is the last time--how we can resolve the 
ongoing housing needs of those families who are still 
experiencing the consequences of this devastating disaster.
    I am pleased now to ask our Ranking Member, Mr. Diaz-
Balart, if he has any opening remarks.
    Mr. Diaz-Balart. Thank you, Madam Chair.
    Once again, I commend you and thank you for this hearing. 
And we agree. We agree on not only the basics but I think even 
on most of the details.
    I may be a little repetitive, but I think it bears 
repeating basically what you have just said. Again, as you just 
said, Madam Chair, this program for families displaced by 
Katrina and Rita ended the 1st of May. And those who remain in 
temporary housing are expected to either vacate their trailers 
or hotel rooms by the end of this month. Now, as you mentioned, 
it was 143,000 individuals after Katrina and Rita who were 
provided temporary housing. And, again, now we are almost 4 
years later and there are still over 5,000 remaining.
    And, obviously, the Stafford Act, as you also stated, 
authorizes FEMA temporary housing programs up to 18 months of 
housing, which can be extended, as has been done by the 
President, obviously, under special circumstances. Now, in this 
case, the housing program was extended for more than 2 years 
beyond the 18-month limit.
    So, obviously, it is an important issue, and how FEMA 
decided and decides when housing responsibilities end is an 
appropriate issue to address. And that is why again, Madam 
Chair, I want to thank you for this hearing.
    We are currently facing an ugly decision: either extending 
the temporary program indefinitely, I guess, or discontinuing 
the program for 5,000 people. And, obviously, neither one of 
those options is attractive.
    Forty-four months now, families and individuals have lived 
in travel trailers or hotel rooms, obviously never intended for 
long-term use. But even after all this time, there seems to be 
no other solution that has been developed. And, you know, there 
has not been a real, viable solution developed and implemented 
by the State and local governments to address the long-term 
affordable housing needs for low-income residents.
    And, in fact, it was discovered during a staff trip to New 
Orleans last fall, some low-income housing units with minimal 
damage were slated to be torn down. Rental rates were three to 
four times what they were pre-Katrina. And people who were 
unemployed, obviously, were priced out of available housing 
markets.
    And then here we are, months later, on the verge of ending 
the temporary housing program with, again, no viable, no 
attractive, no real, viable option for these low-income 
individuals and families.
    On top of that, we have still no national recovery 
strategy, as mandated by the Post-Katrina Emergency Management 
Reform Act of 2006. It seems that, instead of improving, we may 
have actually been going backwards. Again, that is at least a 
perception that I think some of us have.
    Now, when FEMA was moved into the Department of Homeland 
Security, its focus obviously shifted, unfortunately, and its 
capabilities were diminished. And we understand why that shift 
happened, because terrorism is something that has to be dealt 
with, but, again, we also, I think, see the consequences. And, 
as witnesses testified at the Full Committee hearing just last 
week, some recovery issues seem to have been neglected in that 
shift. So, as a result, long-term recovering housing strategies 
were put, frankly, on the back burner. And today we are still 
picking up the pieces and trying to figure out what to do.
    The Post-Katrina Act required the development of a number 
of strategies, including a national housing disaster strategy 
and a national recovery strategy. The national housing disaster 
strategy was only finalized in January of this year, and the 
national recovery strategy has yet to be done.
    In addition, FEMA's recovery role requires that it be able 
to plan and coordinate effectively with other Federal agencies, 
as well as with State and local officials. Obviously, without 
that, it cannot function adequately. Working with agencies like 
HUD proactively in the planning process, as opposed to 
reactively after a major disaster strikes, is crucial, 
obviously, to an effective recovery effort.
    Now, in the case of Katrina, at a February hearing before 
this Subcommittee, I noted that no real strategy was developed 
to address the long-term housing issues in Louisiana. That 
hearing took place just as FEMA's direct housing assistance 
program and the HUD's disaster housing assistance program had 
just had been extended. And, as I said, here we are now in May 
with the same dilemma that we were facing in February. So, 
again, there lies the problem.
    Earlier this month, the Chair held a field hearing in 
southern Florida to examine preparedness for the 2009 hurricane 
season. In my remarks at that hearing, I described the scenario 
of Hurricane Ono, a hurricane model used for catastrophic 
planning in Florida. And Hurricane Ono is not a weird 
theoretical thing; it is actually modeled and based on the 1926 
Great Miami Hurricane.
    If such a disaster occurred, the consequences would be 
devastating. It would require the evacuation of 3 million 
people. Again, this is according to the simulations. Most of 
south Florida would be under one to four feet of water for 
weeks. Homes of 70 percent of the population would be 
destroyed, and millions would be without electricity. And these 
are only a few of the nightmares that would happen.
    And there is nothing that says that such a hurricane could 
not happen this season, next season, or the next season. Again, 
it has already happened. We cannot think that Hurricane Katrina 
is a once-in-a-generation or once-in-a-lifetime disaster, 
unfortunately. So we obviously must ensure adequate time and 
resources are focused on recovery following a disaster.
    And housing is a huge part of that. Without long-term 
housing strategies, families that are displaced will find it 
very difficult to return to their communities. And the 
communities will not be able to rebuild and begin anew.
    So, while we look at the continued housing issues in 
Louisiana and Mississippi today, we should also look forward as 
to how we can prepare for the next big disaster that we all 
know--we hope it won't come, but we know that one day it 
probably will.
    Again, if Hurricane Ono hits south Florida today, how long 
will that recovery take? And we know how long past recoveries 
have taken. Will the same long-term housing issues resurface, 
or are there other improvements that have been made? Obviously, 
it is essential that we prepare for the future but don't forget 
the lessons learned from past storms like Katrina and others.
    Again, I look forward to your testimony. I thank you all 
for your service, and I thank you all for being here today.
    Madam Chair, could I just--it is related, but it is kind of 
a little bit off-subject, but I just want to throw a question 
out there real quick.
    Ms. Norton. By all means.
    The Ranking Member has to catch a plane, has nevertheless 
come to the hearing.
    And you are free to ask questions.
    Mr. Diaz-Balart. Thank you, Madam Chair.
    And I don't expect the answer right now. But I was actually 
on the phone with a constituent this week, and she reminded me 
of the issue with pets, the evacuation of pets. And, obviously 
Congress passed that Pets Evacuation and Transportation 
Standards Act, which authorized assistance for the provisions 
of rescue, care, and shelter for individuals and their pets or 
service animals. The law required FEMA to insure that State 
emergency preparedness operation plans take into account the 
needs of individuals with household pets and service animals 
prior to, during, and following a major disaster emergency.
    If you could, when you get a chance, get back to my office 
as to where that is, you know, what are the plans, just where 
are we, what is the status of that. Because, actually, she 
reminded me of it, and I thought it was a really good issue. 
And, as she said herself, there may have been instances, 
probably were, of people who just refused to evacuate because 
they had a pet. And that is what the law was meant to deal 
with.
    Anyway, if you could just, when you get a chance--not now, 
I know you are not going to be prepared to answer that right 
now, but if you can get me that information, I would greatly 
appreciate that.
    Thank you for your indulgence, Madam Chair.
    And thank you, and I look forward to the hearing.
    Ms. Norton. We have called all of you on the same panel. 
Normally we have Federal officials and then State officials, 
but what we are trying to do in this hearing is to resolve this 
issue once and for all. And therefore nobody is going to be 
able to say something after somebody is gone. We are all going 
to be able to hear what each has said so that we can finally 
say we believe the hearing has brought us to the point where 
everybody has an understanding of his responsibilities.

   TESTIMONY OF DAVID GARRATT, ACTING DEPUTY ADMINISTRATOR, 
 FEDERAL EMERGENCY MANAGEMENT AGENCY; FRED TOMBAR, III, SENIOR 
  ADVISOR TO THE SECRETARY FOR DISASTER AND RECOVER PROGRAMS, 
 DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT; PAUL RAINWATER, 
 EXECUTIVE DIRECTOR, LOUISIANA RECOVER AUTHORITY; AND THE RT. 
  REV. CHARLES E. JENKINS, III, TENTH BISHOP OF THE EPISCOPAL 
                      DIOCESE OF LOUISIANA

    Ms. Norton. So let us begin with Mr. David Garratt, who is 
the acting deputy administrator of FEMA.
    Mr. Garratt. Thank you. Good morning, Chair Norton and 
Ranking Member Diaz-Balart.
    It is pleasure to see you again, I am privileged to appear 
before you today on behalf of the Department of Homeland 
Security and the Federal Emergency Management Agency.
    As always, we appreciate your interest in and continued 
support of emergency management, specifically disaster housing, 
and in the efforts of the men and women who support that 
undertaking at every level of government and within the private 
and volunteer sectors.
    The engagement of congress in this challenging issue 
highlights the complexities that face States, local 
governments, voluntary agencies and the Federal family as we 
collectively look at providing disaster housing in a way that 
meets the temporary and immediate emergency disaster housing 
needs of individuals affected by disasters as well as 
encourages and supports their transition to self-sufficiency.
    Despite many challenges, FEMA and our partners, notably the 
Department of Housing and Urban Development have supported and 
facilitated the successful transition of more than 97 percent 
of those affected by hurricanes Katrina and Rita to long-term 
and permanent housing.
    While FEMA-supported temporary disaster housing programs 
have ended in the Gulf Coast States, FEMA is continuing to work 
with its Federal, State and local partners to ensure a smooth 
transition into more permanent housing solutions.
    In response to hurricanes Katrina and Rita, FEMA conducted 
the largest temporary housing operation in the history of the 
country, providing temporary housing units to more than 143,000 
families across the Gulf Coast. Additionally, FEMA has provided 
more than $7.8 billion in housing and other needs assistance, 
such as transportation, clothing and furniture, to roughly 2.4 
million individuals and households affected by the hurricanes.
    By law, eligible disaster survivors may receive temporary 
housing assistance for a period of 18 months from the date of 
the disaster declaration, unless that is extended. Because of 
the extraordinarily catastrophic impacts of hurricanes Katrina 
and Rita, the period of assistance was extended more than 2 
additional years. In September 2007, housing assistance for 
hurricanes Katrina and Rita disaster operations in the States 
of Louisiana, Mississippi and Alabama was extended, 
establishing a final end date of March 1, 2009.
    In February 2009, Secretary Napolitano announced that 
families would be given an additional 2 months to finalize 
their long-term housing plans. This extension also served to 
give the States additional time to establish a refined 
transition support capacity.
    Since the temporary housing unit program began nearly 4 
years ago, FEMA has never stopped working with occupants to 
transition them out of the program and into more permanent and 
suitable homes. As of the programs end-date of May 1, FEMA has 
been providing temporary housing for more than 44 months, 26 
months beyond the statutory limit.
    Despite the end of this unprecedented period of assistance, 
FEMA will continue to make every effort to encourage and assist 
individuals and families to find long-term housing to fulfill 
their needs. Over the course of our assistance program, FEMA 
has regularly and routinely made direct in-person contact with 
occupants to follow up on their recovery plans, locate and 
offer them rental resources that address their individual 
housing needs, and make social service referrals to local, 
State and voluntary organizations.
    Additionally FEMA has coordinated with their housing 
contractors on timelines for repairs, referred occupants to 
local, State and voluntary organizations that are able to 
provide assistance with building materials, volunteers to help 
them rebuild, et cetera; located and offered affordable rental 
resources when it was determined that the rebuilding would take 
longer than expected; and offered every household the minimum 
of three affordable rental resources that met the household's 
individual housing needs.
    In addition, many occupants have expressed an interest in 
purchasing their FEMA-provided temporary housing units. Today 
1,162 individuals and households have completed or are pending 
final completion of the sale of their unit. In 2007, FEMA 
partnered with the U.S. Department of Housing and Urban 
Development to create and pilot the Disaster Housing Assistance 
Program, a grant program that provides grant subsidies for non 
HUD-assisted families displaced by hurricanes Katrina and Rita. 
HUD utilizes its existing network of local public housing 
agencies to administer this program.
    In the nearly 4 years since Hurricane Katrina, FEMA has 
worked to address the continuing housing challenges arising out 
of the 2005 hurricane season while also responding to the needs 
of many disaster survivors in communities affected by more 
recent disasters. FEMA continues to institutionalize best 
practices and expand our disaster housing capabilities. 
Nevertheless the disaster housing environment will always be 
physically and socially demanding and never more so than under 
catastrophic circumstances.
    So FEMA will continue to work with Katrina and Rita-
affected States to support case management efforts; and, as we 
look to the future, continue to collaborate with Congress and 
our Federal, State and local partners to aggressively explore 
new and innovative forms of housing; refine and improve 
delivery systems; expand and unify planning activities; and 
cooperatively engage with States to improve their own disaster 
housing capabilities.
    Thank you. I look forward to your questions.
    Ms. Norton. Thank you very much, Mr. Garratt.
    Mr. Fred Tombar the senior advisor to the Secretary for 
Disaster Recovery Program at HUD.
    Mr. Tombar. Good morning Chair Norton, Ranking Member Diaz-
Balart, I am Frederick Tombar, senior advisor to Secretary 
Shaun Donovan at the U.S. Department of Housing and Urban 
Development. Thank you for inviting me to testify today.
    On behalf of the Secretary Donovan, I want to first express 
HUD's commitment to seeing the Gulf Coast fully recover. That 
commitment began with our plan to ensure that participants of 
the Disaster Housing Assistance Program, or DHAP, were able to 
make a smooth transition off of the program into more permanent 
housing.
    We worked with Congress and FEMA to provide additional 
assistance to families through August 31st of this year. Also, 
on March 5th, the Secretary joined Secretary Napolitano on a 
trip to the Gulf Coast to see the recovery firsthand. President 
Obama and Secretary Donovan are absolutely committed to helping 
the Gulf Coast fully recover.
    HUD continues to work closely with FEMA, State and local 
governments and public housing agencies to assist impacted 
families who were impacted by hurricanes Katrina and Rita. This 
includes family that resided or currently reside in FEMA's 
temporary housing unit program, or THUs.
    Madam Chair, as you mentioned, FEMA offered each family at 
least three rental housing resources that met their individual 
housing needs and were within the fair market rent rate 
established by HUD for the area. FEMA also offered each THU 
family a referral to DHAP, which provided rental assistance and 
case management services to over 30,000 displaced families. 
Every family that resided in a FEMA THU was offered this 
assistance, but some chose not to participate and currently 
reman in FEMA THUs. The program ended officially May 1st, 2009, 
but as of May 14th, approximately 4,000 families still reside 
in THU units in Louisiana and Mississippi.
    FEMA THU families who agreed to participate in DHAP are 
eligible for transitional rental payments under the DHAP 
Katrina Transitional Closeout Plan. As part of this program, 
nearly $7 million was allocated to support the Louisiana 
Recovery Authority with DHAP closeout case management for 
Louisiana participants. HUD and FEMA are providing this 
additional assistance to families to give them more time to 
transition out of the DHAP.
    Although current THU families that turned down DHAP are no 
longer eligible for assistance, HUD has worked with States who 
identified alternative resources to aid families. The two 
primary sources of funding that can be used to support these 
families that are currently in THUs, are HUD's Home Investment 
Partnership program, or HOME, and the Community Development 
Block Grant Program, CDBG.
    Mississippi and Louisiana both received annual HOME 
allocations to increase the affordable housing stock in their 
States, and each State has significant amounts of unexpended 
home funds. Nearly half or 43 percent of these funds have not 
been committed by the States to a HOME activity or a unit of 
local government and may be available for HOME-funded tenant-
based rental assistance programs.
    Assuming that a State allocated $10 million of HOME funds 
to TBRA and provided an average annual per-family subsidy of 
$4,500, it could fund HOME TBRA for over 2,200 families. Using 
these same assumptions, assisting 5,000 families per year would 
cost $22.5 million.
    The Gulf Coast States also receive CDBG disaster funding 
for long-term rebuilding and recovery. Mississippi and 
Louisiana both currently have a significant amount of CDBG 
disaster funding remaining that has been awarded but not 
disbursed.
    Beyond CDBG and HOME, HUD has also awarded or is in the 
process of awarding additional voucher funding to the Gulf 
Coast States. In the Consolidated Security Disaster Assistance 
and Continuing Appropriations Act of 2009, HUD received an 
additional $50 million for project-based vouchers. These funds 
will increase the affordable housing stock within the region by 
more than 6,500 units.
    Under separate funding, HUD awarded $23 million in project-
based vouchers to the Louisiana Recovery Authority. This 
funding is anticipated to provide approximately 2,500 vouchers 
in Louisiana.
    Thank you for the opportunity to discuss resources that can 
be used to provide housing to FEMA THU families in Louisiana 
and Mississippi.
    I am now happy to take any questions you have and again 
want to thank Chair Norton and the Members of this Committee 
for the opportunity to speak to you today.
    Ms. Norton. Thank you very much Mr. Tombar.
    Mr. Paul Rainwater, executive director of Louisiana 
Recovery Authority.
    Mr. Rainwater. Thank you, Madam Chair and Ranking Member 
Diaz-Balart, for all your support in the Gulf Coast. And thank 
you for allowing me to come here to talk to you about the 
critical matter of transitioning those currently in temporary 
disaster housing in Louisiana.
    Although we are making great progression in Louisiana, we 
have to remember that some of that progress was slowed by 
Hurricanes Gustav and Ike, and the credit crunch has caused 
some challenges in our rebuilding of housing.
    At the height of post-Katrina and Rita FEMA trailer program 
in Louisiana, we had more than 76,000 active trailer leases. 
Through homeowners rebuilding their houses using Road Home 
money, we have disbursed $8 billion to 124,000 Road Home 
applicants, and other funds, the Disaster Housing Assistance 
Program and rental units being restored and other recovery 
efforts, this number has been whittled down to fewer than 3,000 
residents.
    Working together with FEMA and HUD and many nonprofits 
across the state, we are reaching out to those remaining in 
trailer residences to ensure that they are not made homeless at 
the end of the month. Already we have housed 25 residents who 
had to vacate their FEMA-subsidized hotel rooms at the 
beginning of May through our existing rapid rehousing program 
funded through Community Block Grants.
    Additionally our staff each day speaks to trailer residents 
to determine their needs and also meets with FEMA to review 
files and cases on an individual basis to find solutions that 
will prevent these citizens from becoming homeless.
    Our staff has been assured many times by FEMA staff in 
Louisiana that FEMA will work with trailer residents on a case-
by-case basis to ensure that families are not adversely 
affected by these trailer deadlines. We are sharing information 
with those--we have about 426 folks that are in trailers that 
are Road Home applicants and also applying for hazard 
mitigation money to help them complete their homes. FEMA and 
our staff share this information on a daily basis.
    We have seen great commitment from the new acting head of 
the Transition Recovery Office in Louisiana, Tony Russell, and 
we thank FEMA and the Department of Homeland Security for 
sending him to us. He understands why this housing issue is so 
critical and has tried to approach this transition with a 
compassion for disaster victims, and his hard work has not gone 
unnoticed in Louisiana.
    Some of these residents can be assisted through other 
programs. Some may be able to keep their trailers temporarily 
while they finish home repairs, and others may benefit from 
FEMA's donations and sales programs that will allow them to 
keep their temporary housing units.
    Beginning this month, the Louisiana Recovery Authority and 
the Louisiana Department of Social Services has secured up to 
$2 million in Social Services Block Grant Money to provide case 
management for this population.
    We do know that may of those who remain in trailers are 
homeowners who have difficulty completing their home repairs. 
Data from early March showed that the majority of those in 
trailers who were Road Home applicants, about 1,800, had 
received some level of funding from the program. However, many 
cases for many reasons there are gaps in their financing, and 
it is preventing them from moving forward quickly. To address 
this, we have two pilot housing rebuilding programs that we 
will soon send to HUD for approval.
    In addition, there are a variety of Community Block Grant 
and HOME-funded rebuilding programs that have been pushed down 
to nonprofits and to municipalities underway in Louisiana, 
particularly in New Orleans, and the State's $73 million 
Permanent Supportive Voucher Program will start next month.
    We also must transition 14,831 individuals receiving aid 
from a the Disaster Housing Assistance Program administered 
through HUD. Earlier this year, HUD Secretary Shaun Donovan 
granted a 6-month extension of DHAP. We cannot thank him enough 
for this action, which has been critical to assuring that we 
prevent mass homelessness in Louisiana. Additionally HUD is 
allowing the State up to $8 million for case management of this 
population. In only 3 weeks, more than 9,000 clients have been 
signed up. So far about 3,450 residents had their request to be 
converted from Disaster Housing Assistance Program vouchers to 
more Permanent Housing Voucher Process.
    The State has also completed much repair work, which I have 
outlined in my submitted testimony. We also aim to have more 
than 5,000 new rental units online by the end of this year, 
which will help greatly with creating affordable housing, 
particularly in New Orleans.
    I want to thank the Subcommittee for allowing me to come 
here today. We have much work to do, but we are making much 
progress. Thank you.
    Mr. Diaz-Balart. [presiding.] Thank you so much for your 
testimony.
    Our last witness is Rev. Charles Jenkins, III. Thank you 
for being here, sir, we appreciate your time and look forward 
to your testimony.
    Rev. Jenkins. Thank you. My name is Charles Jenkins. I am 
Bishop of the Episcopal Diocese of Louisiana. I reside in the 
Second Congressional District in New Orleans. And I want you to 
know that my sanctuary slippers are on the ground, in the mud, 
and covered with mold. And I am here to provide the contrast I 
think to the three previous speakers.
    I have been FEMA registered. I received help from FEMA. I 
have been food step eligible. I am Road Home qualified. I have 
been homeless. I have been called a refugee in my own country.
    However, it was the former resident of 1600 Pennsylvania 
Avenue who helped me understand my identity. He was frustrated, 
and in a televised speech said, "those people down there need 
to understand."
    The next day, an African American minister said, "Bishop, 
have you ever been called 'one of those people' before?"
    I shook my head no.
    He said, welcome to the club.
    So I am glad to be one of those people down there.
    Two days ago, I went to the home of Ernest Hammond on 
Annette Street in the Seventh Ward of New Orleans. One of our 
volunteer team there, composed of volunteers, Presbyterians, 
Methodists, Catholics and Episcopalians from Pennsylvania, New 
Jersey and New Hampshire, were cleaning out his home. We had 
been told of Mr. Hammond and his dilemma prior to the New York 
Times article May 8th. Our case managers are visiting with him.
    The smell of the rot and dirt and the mold pushed at me as 
I went into his house. I thought I would never smell that 
again. Surely, I thought, we are beyond that.
    Now this man is not one of that slice of society that will 
always be dependent on others. He is 71-years-old. He drove a 
truck for 31 years until the company went out of business. He 
was a renter in this place for 11 years, saved his dollars, and 
then bought it. He did not receive any FEMA or Road Home money 
because it is a triplex.
    His yard is planted in vegetables. He has sweet sugar cane 
or soft sugar cane, as we call it there, and citrus. He will 
gladly show you the hole in the roof he cut to get out of his 
attic and the axe he used to cut it. He will show you the cans 
that he collects daily to sell. And by the way, this is a smart 
man, he is playing the future market on crushed cans, which is 
now down to about 30 cents a pound. He sells only what he needs 
to supplement his $250-a-month Social Security check. He hopes 
that the price of cans will go back up to 85 cents. We wonder 
how the recession hurts the poor.
    He bought his house from his landlord using all of his 
savings. A few weeks ago, a FEMA representative stopped by to 
say that, at the end of the month, his trailer would be taken 
away. This proud, hardworking man today leaned against the wall 
and weeps huge tears. He said he has had no help until the 
Episcopal Church came to him. He has nowhere to go when his 
trailer is taken. What is the value of that trailer? Who needs 
it, except him? There are two trailers on that lot, and I 
hesitate to say this in front of FEMA, but as soon as the last 
family moved out, another one moved in. Don't leave them vacant 
down there.
    A date for the ending of trailers in DHAP is set to satisfy 
whom? Not us. It really doesn't matter what date you set 
because we cannot meet it.
    Chair Norton, it is not a matter of a refusal to meet it, 
but a deadline of next week or next year is for us a 
humanitarian crisis, not because we refuse but because we are 
unable. I ask that you take away the yardstick, the charts, the 
requirements. I haven't quoted any figures this morning of 
these agencies and that you build a human needs-based program. 
When the needs are met, then end the program. We have people in 
Calcasieu Parish from Rita that are still living in tent 
cities. They haven't even gotten the trailers yet.
    I plead with you to move beyond the Catch-22 design that 
always catches the poor in a frightening vise of what one lady, 
Mrs. B, whose husband is a Vietnam Veteran, has cancer, and she 
has to unplug his breathing machine to run the appliances to 
cook dinner. They would love to get out of that trailer. The 
bed is too small; he has bedsores. Let me move ahead.
    The problem is one of effective case management. I am still 
running a very effective case management program in New Orleans 
with three people. We have helped 672 families since the KAT 
program folded. They tell us, "you are not only doing a good 
job, Bishop, but treating us as human beings." The much 
anticipated disaster case management pilot never happened in 
Louisiana.
    In conclusion, it seems to us arbitrary. It seems to us 
threatening. It frightens us with these seemingly arbitrary 
decisions to please someone else, to end these programs. And 
they are not going to motivate us, ma'am. We are doing the best 
we can.
    I will have taken on Mr. and Mrs. B, and I have taken on 
Mr. Hammond. They will in time be all right. Certainly some of 
us are that demographic slice who will never be able to live 
without public support. But most of us are not of the 
chronically unable to cope. That is a total 
mischaracterization. Men like Earnest Hammond are heroes. He is 
coping.
    There was a lady with a sign standing outside the Moriel 
Convention Center when we were evacuated there. Her sign said, 
"I am an American, too." The National Guard trucks rolled by 
her and kept going. We are Americans, too, don't roll by us 
again, thank you.
    Ms. Norton. [Presiding.] Yes, you are Americans, and there 
is no such thing as abandoning people to the streets, but we 
have got three agencies here, all of whom claim to be working 
hard to locate these residents, and we don't seem to have a 
problem-solving approach for the last remaining residents.
    When you have been able to accommodate thousands upon 
thousands, it is unfathomable that we would be having this 
trouble. And so let me first ask the Ranking Member if, before 
he leaves, he has any questions beyond that which he has 
already asked.
    Mr. Diaz-Balart. Thank you, Madam Chair. I have a list of 
questions, but unfortunately, as you have stated, I have to 
leave because the Secretary of DHS Napolitano is going to be in 
south Florida. I am actually going to go meet her there.
    Thank you for your indulgence, but unfortunately, as you 
said before, I will have to part. I think my questions will 
have to wait until next time, but thank you for this hearing 
and thank everybody for their testimony.
    Ms. Norton. Thank you Mr. Diaz-Balart.
    Mr. Tombar on page 1 of your testimony, you say that FEMA 
has offered each family residing in--what is a THU? Temporary 
Housing Unit. And these three rental resources that met their 
individual needs, then you name the kinds of needs and they 
seem--they certainly seem reasonable to me--number of bedrooms, 
accessibility, considerations, units within a reasonable 
commuting distance. All of these resources were within the 
fair-market rate established by HUD. Yet you say that residents 
have refused to locate in any of these three units at their 
disposal?
    Mr. Tombar. Yes, ma'am.
    Ms. Norton. Now, you will then have to explain to this 
Subcommittee how that is possible, because we cannot believe 
that people believe they are entitled to whatever housing is 
available in the United States. People who have been living as 
long as these people have been living in the worst of 
circumstances would not easily say, "no, eenie meenie minie mo, 
you go back and find some more; I am not leaving."
    You have got to explain why that is happening. Who is 
working with these residents? How many such residents are there 
in Louisiana and in Mississippi who are given housing that 
meets the requirements you just named, but despite having three 
sources, have turned them down? I want to know how many such 
people there are and what you have do to ascertain how that 
could possibly happen.
    Mr. Tombar. Madam Chair, my colleague Mr. Garratt has the 
details and wants to answer. If I could, before he does, just 
to let you know that I am a native of New Orleans, and the 
folks that we are talking about, many of them are my family 
members, my friends, my former neighbors. And so I know 
anecdotally and from my own experience about people who have 
been offered and have refused these resources.
    Ms. Norton. Now, so from your own experience Mr. Tombar, 
why, from your own experience, have people turned down three 
offers? We will go to Mr. Garratt in a minute. Since you are 
now testifying as an expert witness, tell me why your own 
friends and relatives would have turned down houses.
    Mr. Tombar. There is something very attractive about being 
near home, and these trailers that people have been living in 
are on their lots, at their home.
    Ms. Norton. On their own lots?
    Mr. Tombar. Yes, ma'am. That they are working on, the homes 
that they are working to repair. And these families that I am 
speaking of, that I know of personally who have refused, have 
refused because they want to stay----
    Ms. Norton. Now, are these homes that are likely in fact in 
time to be repaired as they are now in the process of being 
repaired? Mr. Rainwater.
    Mr. Rainwater. Madam Chair, of the 3,000 trailer residents 
we have in Louisiana, about 1,800 of those were Road Home 
applicants; 1,400 of those have closed on a Road Home grant. 
And what we are finding is that, in some cases, people will be 
able to complete their repairs. And FEMA is working closely 
with us on that to time line that out.
    In some cases, we are having folks who are having gap 
financing issues, and so we are starting to take some of the 
Community Block Grant Program money we have and put it aside 
for a pilot reconstruction program so that, because the way the 
Road Home was approved by HUD, we have to be careful that we 
don't cause the duplication of benefit. And so we get about----
    Ms. Norton. So there is a group--now remember, this hearing 
we are regarding is a problem-solver.
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. There is a group that, leave aside the gap 
group, that is a big group in the United States today, by the 
way.
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. There is a group that could finish the 
rebuilding of their home. Now, just let me ask all of you here, 
let's deal with that group first, is there any reason why those 
people who are going to have their own home now, who are 
rebuilding their own home should not be left in their trailers 
until such time as that occurrence?
    Mr. Rainwater. Madam Chair, we are sharing that 
information. FEMA is sharing the trailer information with us, 
and we are sharing Road Home information with them. We have two 
spreadsheets, for Road Home applicants and when they got their 
grant, and then FEMA is telling us----
    Ms. Norton. Because the people didn't exactly receive their 
grants in a timely fashion, let's put that on the record.
    Mr. Rainwater. Yes, ma'am.
    And I will tell you that we closed 31,000 grants last year, 
which were the toughest grants because of title issues, 
succession issues and those sorts of challenges; the challenges 
of the contractor in 2007 had done some of the easiest grants 
in the beginning. And so we did about 30 outreach sessions last 
year, not outreach, working sessions, took the whole staff out, 
went out in low-income and poor communities and just worked 
with folks to get their grants closed. So we have about 1,200 
folks left to close. We identified those in a FEMA trailer and 
those who are going to get HOME grants.
    Ms. Norton. So there we have, Mr. Tombar, a group of people 
who wouldn't even have the problem, I can understand your 
problem.
    And by the way the notion of being close, millions of 
Americans who have to travel to get to Washington, D.C., every 
day because the only housing they can afford is 2 hours away 
from here. So we understand. We are not saying that this is for 
everybody's convenience. But we can't believe that people who 
live in these homes are simply looking for the best and the 
most convenient.
    Now here we have a group of people, let's see if we can get 
agreement to the following proposition: With respect to 
extensions, let us, at least for those people who are going to 
aid in the national recovery by rebuilding their own homes, 
would it not make sense for an extension to be granted with 
respect to those people, just as a commonsense way, rather than 
put them out of their homes, stop them from--because they have 
to then use what income they have simply to find a place to 
live. Wouldn't it be in the national interest and in the 
interest of the State to at least partition off those people 
for an extension pending some reasonable time for completion of 
their rebuilding of their own homes? Is there agreement on 
that?
    Rev. Jenkins. Yes, yes.
    Mr. Garratt. Madam Chair, it is an attractive proposition, 
but in fact, what we are looking at here are, as we calculate 
it, in Louisiana, 367 families who could complete repairs on 
their home in 5 months or less.
    Ms. Norton. 360 families.
    Mr. Garratt. 367; another 258 could complete repairs on 
their homes in 11 months or less; and 509 families whose 
repairs would take at least a year to complete, and then 
another 711 who are not rebuilding at all.
    Ms. Norton. All right.
    Mr. Garratt. Now, these figures do not indicate that there 
is active repairs going on. What they reflect is that, were 
active repairs to commence or to continue on these homes in an 
active way, in other words, daily work on these homes, that the 
home could be repaired in 5 months.
    Ms. Norton. Now this is good, this is good, this is going--
go ahead.
    Mr. Garratt. One point I want to make, it doesn't 6reflect 
that active rebuilding is necessarily going on in every case. 
In some cases, they have been 5 months away from rebuilding 
their home for a year and a half. It is not quite as simple as 
just----
    Ms. Norton. This is an important point. Can we also say for 
the record that the most serious recession since the Great 
Depression is going on? If anybody is able to pick up a hammer 
and do anything today when we just finished a stimulus package 
just short of a trillion dollars because even the biggest 
developers didn't have anything into the ground, I just want us 
to note that for the record.
    But what you have said, Mr. Garratt, is very important. And 
I am not here indicating that there is a solution, and this is 
a solution. I am simply trying to disaggregate the problem to 
see how much of a problem we have.
    Now with respect to the rebuilders, it does seem to me that 
they are operating in the national interest and in the interest 
of the State. These are homeowners.
    Mr. Garrett's figures, I believe, are important figures 
because they show an analysis of what is on the table with 
respect to the rebuilders. At the moment, I have to stress that 
the work isn't ongoing, since the only work I know is going 
into stuff we have given people through the Federal Government 
since we are the only people who can write checks in the world 
and not have it count against our checking account.
    My question really goes to whether or not Mr. Rainwater in 
particular or for that matter HUD, Mr. Rainwater, there has 
been considerable criticism. You hear Mr. Garratt talk about 
the different stages of rebuilding here. We have to note that 
our program that we were so proud of, Katrina cottages, where 
we were generous in funding, has not so far as I know, and here 
is a State, produced a single unit. I don't know why I should 
hold these people to the standard of renovating their unit when 
a whole, big State with nothing but billions of dollars flowing 
in hasn't been able to produce one Katrina cottage.
    Are we holding these people to a standard we are not 
ourselves meeting? And would you explain here for the record 
why there is not even one cottage? I realize these people would 
not be in Katrina cottages, but I am trying to look at some 
objective measure by which to look at, they are getting put out 
of their trailer, and the State having not produced not one 
housing units from the very promising Katrina cottage program.
    Mr. Rainwater. Yes, Madam Chair. A couple of things. One 
is, we have asked for extensions to FEMA and to HUD----
    Ms. Norton. And just like these people are asking for 
extensions in order to do their work.
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. So far, you all are on the same page, but they 
have a whole lot less resources when they come to Katrina and 
say give us some more time.
    Mr. Rainwater. Yes, ma'am. My point of that is not to point 
fingers. My point is to say that one of the things that 
happened to us last year was Gustav and Ike. I have been 
involved in the four, Katrina, Rita, Ike and Gustav----
    Ms. Norton. That happened to everybody, Mr. Rainwater. It 
set back those people Mr. Garratt told us may have finished in 
5 months. It set back people who, being faced with a recession, 
have been set back perhaps some considerable time.
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. The question for those people, it seems to me, 
Mr. Garratt, and I am coming back to this, might well be, if 
those people have the resources to ultimately build, have you 
looked to see whether they could possibly rebuild with the 
government help that is due them and the rest; one question 
would be if these people have the resources with the associated 
help to build at all. And if they do within 5 months, 11 
months, 1 year, that is something that FEMA and for that matter 
this Subcommittee might well have to take into consideration. 
We are talking about people who are homeowners, perhaps have a 
job because they are there or probably would be someplace else; 
people who, with assistance, some assistance, whatever they are 
due, would in fact be able to rebuild?
    Mr. Garratt. Once again, it runs the gamut, Madam Chair, 
there are some among that group actively engaged in this and 
have the resources to do that. As I indicated in my testimony, 
we have also been working with them to help them identify 
contractors and to work with voluntary agencies and others who 
can provide building materials and help for those who cannot do 
it themselves, but the bottom line is it runs the gamut.
    We have got a wide range of engagement on the part of the 
homeowners and how fast, how aggressively they are pursuing 
rebuilding.
    Ms. Norton. Are these people receiving some assistance?
    Mr. Rainwater. Yes, Madam Chair. On the tactical level, on 
the ground, I don't sit in Baton Rouge, I go out and talk to 
nonprofits, talked to Road Home applicants. My staff and FEMA's 
staff walk trailers together and talk to applicants, and then 
they bring the information back to us, and we talk about where 
they are at. And that is where some of these pilot 
reconstruction programs have come from, are from meetings with 
Road Home applicants and nonprofits about, how do we help them 
with the gap issue?
    The other piece of this is that the FEMA folks on the 
ground, the Transition Recovery Office, have told us that they 
will work with applicants, if someone is 5 months out or 6 or 7 
months out from getting their construction complete; they will 
work with us.
    The other piece that we are trying to do is----
    Ms. Norton. They will work with you, of course, working 
with you may mean they can't be put out of their trailer.
    Mr. Rainwater. Yes, ma'am, that is right, so they can 
complete their reconstruction. There is a pretty massive 
effort.
    Ms. Norton. Does that mean, Mr. Garratt, that FEMA would 
regard it as reasonable with respect to those people that Mr. 
Rainwater has identified to allow them to remain in their 
trailers until they can proceed and have their construction 
done?
    Mr. Garratt. If that was the only consideration at play 
here, Madam Chair, perhaps, but it is not the only 
consideration at play here.
    The title of this hearing is, "Still Post-Katrina: How FEMA 
Decides When Housing Responsibilities End." What i would like 
to do is just address that as part of a comprehensive answer to 
this question.
    We provide temporary housing units as a last resort. We 
provide temporary housing units, these forms of manufactured 
housing, because there are no organic rental resources 
available to support the population that needs this assistance. 
So we roll these in; we set them up, and we provide those to 
fulfill that gap. We continue to provide those until the rental 
capacity reaches the point it could now support a population, 
and we can move them out of what are largely, in the case of 
travel trailers, an inadequate long-term living environment. We 
have been up here to testify before about the inadequacies of 
living in a travel trailer; that it is no place for families to 
live long term. In fact, we have policies in place now that 
only allow us to use those for 6 months in new disasters. We 
have families who have been living in these things for 
approaching 4 years at this point.
    Ms. Norton. I have to stop you there for one second. If 
these families were to move out of these trailers, I am trying 
to get with this group of families here between you and Mr. 
Rainwater; what would happen to those trailers?
    Mr. Garratt. They would be scrapped, ma'am.
    Ms. Norton. That is right. So let's get that on the record. 
These trailers would be scrapped, so that there would be no 
return to the government. Are the trailers costing you 
anything?
    Mr. Garratt. Yes, ma'am. We pay operations and maintenance 
for these trailers.
    Ms. Norton. So tell me what you pay.
    Mr. Garratt. I can tell you what we pay, yes, ma'am. We can 
get these figures----
    Ms. Norton. I am talking about--I don't need the total 
amount. If there is an individual trailer unit, what is it for 
the maintenance of the trailer unit that you pay? Do you pay 
the heat or the light or the utilities or what?
    Mr. Garratt. No, ma'am. In most cases for trailers that are 
on private property, they pay the utilities for that.
    Ms. Norton. So what is that it you pay? I am trying to find 
out the outlay of the government as opposed to the outlay of 
the government, for example, if these people are thrust onto 
the rental market. Let's do a cost/benefit analysis here.
    Mr. Garratt. We pay a maintenance contractor. We have 
maintenance and deactivation contracts. Those contractors----
    Ms. Norton. Do you pay essentially the lease of what is 
going to be destroyed?
    Mr. Garratt. Well, we purchase those units and again we----
    Ms. Norton. They are purchased now. You own them.
    Mr. Garratt. We do.
    Ms. Norton. So I am trying to find out what you pay. You 
have already bought them. You are going to destroy them. They 
are serving a good purpose at this point. I am not even talking 
about all the people in the trailers. I am talking about the 
people who fit these various months from reconstruction from 
their home. What is the value to the government in putting 
them--would they, in fact--if they were put onto the rental 
market, would there be homes, rental housing for these families 
if they vacated the trailers? Mr. Tombar, do you want to answer 
that one?
    Mr. Tombar. Yes, ma'am. Yes, in fact, the Governor of 
Mississippi was recently here meeting with the Secretary of HUD 
and put the vacancy rate in the southern part of Mississippi at 
upwards of 25 percent.
    Ms. Norton. For market rate for people of the income level, 
we are describing here.
    Mr. Tombar. Yes.
    Ms. Norton. That is what the Governor of Mississippi said.
    Mr. Tombar. He said that he has a vacancy rate of nearly 
25----
    Ms. Norton. For people, for example, who need Section 8 
housing, sir. Does he have that kind of vacancy rate for them?
    Mr. Tombar. We have, as I testified----
    Ms. Norton. I have got a vacancy rate here too for people 
who can pay $6,000 a month. What kind of talk is that, vacancy 
rate? We are talking about the most vulnerable families----
    Mr. Tombar. You asked the question--I am sorry, ma'am.
    Ms. Norton. We are talking about the most vulnerable 
families or people who will need housing assistance from you, 
sir, from you, sir, almost all of them, if they are to be 
moved.
    Mr. Tombar. I was speaking about what units are available 
and then there are resources that are available to go with 
these units----
    Ms. Norton. Mr. Tombar, would you submit within 2 weeks, 14 
days, based on your own testimony, to this Committee the rental 
units in the State of Mississippi and in the State of Louisiana 
by income that--by contemplating income, whatever is the 
technical term? Never come before this Committee with some 
notion of a rental rate that includes everybody from the 
richest people to the poorest. You didn't even say it was the 
fair market rate of what level. That is to give us no 
information. So that is all right, sir. You don't have the 
information at your fingertips.
    I want to know what is the vacancy rate in the State of 
Mississippi by county, within 14 days, and by income level. 
That information alone is useful to the Committee. We are not 
going to require the government to do what is impossible, but 
we are not going to accept massive nonsense figures like that.
    Mr. Tombar. Ma'am, if I could----
    Ms. Norton. It is very interesting that there is nobody 
from Mississippi here, and I said to the staff there should 
have been. But your answer--this whole hearing is about 
Louisiana and you quoted me a rate for Mississippi. Now quote 
me the rate for New Orleans. Quote me the rate for Louisiana.
    Mr. Tombar. I will. And if I could, that was the first part 
of my answer. The second part of my answer is that there are 
resources available to subsidize rent for families that cannot 
afford it, as I testified to in my testimony.
    Ms. Norton. Okay. Now, this is important. Wait a minute. 
Section 8 housing, we had phone calls to my office telling me 
that--this is an example of a family who--it came from someone 
in the District of Columbia that found housing for her own 
disabled--for some disabled relatives. When she found the 
housing, FEMA agreed that it must have been within the rate 
that FEMA would allow people. Now she is being told that FEMA 
will no longer pay because she is going to be past the 
deadline. And, by the way, she has been told to get out of the 
housing on a date soon to come, not August, but get out of the 
date now. So these people are receiving these notices now. So 
she has been told to get out of the housing or pay. Then she 
went to HUD and they said--I think this was in the Baton Rouge 
area, and they said we don't have any Section 8 housing 
available.
    This is a disabled person. What would be available to that 
person whose relative has been rendering self help in the first 
place and paid the rent until the relative qualified, since she 
has been told there is no Section 8 housing and she is 
disabled, what should my office tell this relative that your 
testimony is here today.
    Mr. Tombar. Yes, ma'am. For--I assume that she is near East 
Baton Rouge Parish. And I have numbers here. For East Baton 
Rouge Parish we have made available 459 vouchers for families 
and prioritize--that housing authority has prioritized elderly 
and disabled families. To date, only of those 459, there are 
approximately 300 families that have availed themselves of 
those vouchers so----
    Ms. Norton. Explain that to me. So you say most of them 
have come forward, 300 out of----
    Mr. Tombar. Out of 459, 300 have been--families have been 
invited in to make themselves available of those vouchers.
    Ms. Norton. Oh, excuse me. I thought you meant 300 had, in 
fact, accepted the vouchers.
    Mr. Tombar. That number actually is 206.
    Ms. Norton. So is this about half of them? So your 
testimony to me is that there is Section 8 housing, voucher 
housing, available in the Baton Rouge area.
    Mr. Tombar. In the Baton Rouge area, in the New Orleans 
area, in places throughout southern Louisiana, there are 
resources available for families. Each of these housing 
authorities, we have been working them since immediately after 
the storm, ma'am, to get them to prioritize, providing 
resources to families that were displaced by Hurricanes Katrina 
and Rita. We have provided--this Congress has provided $85 
million to convert families that were previously on DHAP 
program to the Permanent Housing Choice Voucher program. With 
that, we have prioritized families who are elderly and 
disabled, like the woman that you mentioned. So there are 
resources available in those States--in those communities for 
those families. In fact, you asked specifically about New 
Orleans. In New Orleans, there is a list of landlords who have 
come into our local housing authority there saying that they 
are willing to make their units available to eligible families, 
that runs now over a thousand landlords along a thousand units 
long that has been sitting there without new----
    Ms. Norton. Mr. Rainwater, I hear this testimony from HUD. 
They have got a glut of housing here, if we can only get 
somebody to take it is essentially what he is saying. Can you 
make this Subcommittee understand what the issue here is? See, 
I am dealing with the trailers differently. I gave Mr. Tombar a 
question regarding somebody who is renting. I have to assume, 
and I must say I find this puzzling, if this person is in 
housing that was approved by HUD with Mr. Garratt, I would 
assume that that is the kind of housing that would qualify for 
Section 8, because otherwise I don't think HUD--if FEMA would 
have put this person in such a high-rent place that he couldn't 
be converted to Section 8 if that time came.
    Mr. Garratt. Actually, Madam Chair, that is not necessarily 
accurate.
    Ms. Norton. They could have been in a high-rent place where 
you were subsidizing?
    Mr. Garratt. Well, we didn't pick the apartments for 
individuals through our program. We provide funding to 
applicants and applicants choose where they live. Now, we can 
identify available forms of housing and we do that for these 
applicants, but they choose where they live as opposed to under 
HUD's program, HUD will help place them in a HUD approved 
property.
    Ms. Norton. Now I want to speak with Mr. Rainwater and then 
with Reverend Jenkins.
    Now, Mr. Rainwater, is it your experience, as a State 
official, that there is Section 8 housing just waiting for 
people to come forward and accept it?
    Mr. Rainwater. Madam Chair, one of the challenges I think 
that--there is no doubt, as I have said earlier, we have made 
great progress whether it is small rental or--we closed on six 
large apartment complexes or actually did grand openings in 
March of this year. Many of those are mixed-income communities. 
So capacity is coming back online and in many cases or in some 
cases what you have, and I have gone out and spoken with folks, 
and you mentioned it earlier people don't want to commute or 
they don't want to be away from their neighborhood. And that 
is----
    Ms. Norton. Just a moment. Mr. Jenkins, I come to the--
there is some truth in that. There is no question about it. You 
find that, in fact, more settled people are--by the way, it is 
interesting that there were statistics that came out of 
Louisiana that said that people were all the populations in the 
country over the migrations, the great migration, for example, 
of black people to the north, people in Louisiana were the 
least likely to leave. They liked where they were. So I can 
understand it having visited New Orleans. And of course people 
in New Orleans have seen huge catastrophes, just not quite one 
this big. So what Mr. Rainwater has said, that there are people 
that just can't imagine being away from their home community, 
would, in fact, be the case.
    Now, I have to ask you whether you find that and I also 
have to ask you about case management, whether or not there is 
an - people are working adequately with residents to understand 
the limits of the Federal Government, the limits of the State 
Government, and the limited choices we all have to make in this 
life.
    Rev. Jenkins. Thank you. I find that New Orleans is one of 
the places in this country that still gives people a sense of 
identity. Where there is a great American exodus happened, many 
people stay in New Orleans. Many of the houses we discovered--
--
    Ms. Norton. And indeed you have had a very rapid return of 
population.
    Rev. Jenkins. We have.
    Ms. Norton. More than anyone thought. What is the 
population of New Orleans now, please? And I will let you go in 
a minute.
    Mr. Rainwater. It is right at about a little over 300,000. 
What is interesting though, ma'am, is the region is back up 
over a million.
    Ms. Norton. What was the region before?
    Mr. Rainwater. It was about 1.3 million. It is up a little 
over a million. In New Orleans before the storm was around 
340,000, and it is up around 310, thereabouts, ma'am.
    Rev. Jenkins. The demographic we find that is most--the 
population that is returning to New Orleans now last month was 
1,800 and some odd African American people, many of whom are 
coming back from Texas, and just, I think, a couple hundred 
Anglo and other returning. People are returning home. You get a 
sense of identity of who you are in New Orleans.
    I worked with Jerome Smith of Tamborine & Fan. Fifty-one 
percent of youth of New Orleans are still gone, and we are 
tracking them and trying to work with them where they are. I 
personally--and I know that all my testimony is anecdotal and I 
apologize for that. But I disagree with the effectiveness of 
FEMA's understanding of case management. What I hear on the 
streets and what I see on the streets is that when contact is 
made, we are given a list of telephone numbers. I believe that 
that list at----
    Ms. Norton. Telephone numbers of whom, sir?
    Rev. Jenkins. People like these thousand empty apartments, 
people who are going to have resources for us, people who are 
going to help. You can call those numbers and no one answers.
    Ms. Norton. Just a moment.
    Mr. Garratt, would you like to respond to that, the notion 
that people are given telephone numbers rather than case 
management?
    Mr. Garratt. Madam Chair, actually much of case management 
involves, as a matter of practice, referral. Case managers 
identify needs and then they refer the individual to services 
and people who specialize in dealing with those needs.
    Ms. Norton. Mr. Garratt, I do agree with that and I think 
that for the average American, that would surely be the case. 
This hearing concerns disabled people, elderly people, people 
who are least likely--they want to stay where they are because 
they have no idea what happened to them or what will happen to 
them. So if case management for a disabled person or an elderly 
person amounts to here is what Mr. Tombar has to offer, my 
question to you would be do you provide some transportation for 
that person so that they can go look at these resources?
    Mr. Garratt. Providing transportation is not something that 
is normally a part of the case management.
    Ms. Norton. Well, my Lord, let me assume some of these 
people are blind, some of these people have no transportation 
and live in that trailer or that unit because they have no way 
to get out. How would they--most of these people are on 
assistance, government assistance of some kind. How would you 
suggest that those people go about dealing with the referral to 
three units that Mr. Tombar has to offer?
    Mr. Garratt. In most communities across the United States, 
there are social service organizations and voluntary agencies 
who will provide that kind of support.
    Ms. Norton. All right. Let us now go to Mr. Rainwater. The 
State interest in getting these residents to one of these 
available units--this is the first time I ever heard of Section 
8 housing being available in the city. So I am quite excited 
about it. We don't have any available here. Your interest as a 
State would be very high as well. What does the State or the 
city offer? Let me ask you first, is it your responsibility or 
whose responsibility--Mr. Tombar said I have got the units, Mr. 
Garratt says I have got the referrals. What do you say, Mr. 
Rainwater?
    Mr. Rainwater. Madam Chair, last year when I took this job 
in 2008, we started working on a strategy to create some sort 
of safety net. We also started working on extensions, as you 
know, and you know how the extensions work is they come up 
every 6 months.
    Ms. Norton. The extensions of what?
    Mr. Rainwater. Extensions of the FEMA trailer program and 
the Disaster Housing Assistance program. When Secretary 
Donovan----
    Ms. Norton. Mr. Rainwater, let me stop you there because 
the extension notion could become like cocaine.
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. And here you are talking to someone here who is 
very sympathetic to the residents because they are human beings 
who have been subjected to the worst of disasters. But it 
sounds to me as though you all need to be put into withdrawal.
    Mr. Rainwater. Yes, ma'am. And I was going to get to that 
point. I mean what I wanted to do was walk you through sort of 
the steps of what we were looking at to move folks out of 
disaster housing, and that is it is really time and money. It 
was a matter of getting our small rental program----
    Ms. Norton. With a minute, Mr. Rainwater. I want to insist 
on an answer to my question. You see, we are trying to solve 
something here. I have got the units, I have got the referrals, 
and I don't have any way for some 80-year-old woman or some 
blind man to get to a referral. My question to you is what does 
the State or what does the city have to do in this--are you 
part of it and----
    Mr. Rainwater. Yes.
    Ms. Norton. I am going to first insist upon an answer to my 
question. Are you providing a service once these two agencies 
have done their part?
    Mr. Rainwater. Yes, ma'am, there are a number of nonprofits 
that we work with throughout the city, throughout the region. 
It is not the best case management program, and there is no 
doubt it has gaps. There is no doubt about that. But we do 
have--we have case managers working directly with FEMA. We have 
contracted with the Housing Authority of New Orleans to help us 
work through those issues. And we also work with groups like 
Unity of New Orleans, who went out and pick up folks who are 
disabled or the group that you are talking about and I have 
seen those cases and we have actually been on the ground with 
the nonprofits as they go and talk to people. But it is not--it 
is--what we are trying to do, it is not as comprehensive as it 
could be because we never got there----
    Ms. Norton. Mr. Rainwater, I was very impressed by your 
testimony last time you appeared here because you were the sole 
problem solver in the bunch, and I must say you are not rising 
to that level of problem solving here. Mr. Jenkins, for 
example, in his testimony complains about FEMA's inability to 
share information, and here is a nonprofit.
    Mr. Rainwater. Madam Chair, we are--one of the things that 
we did----
    Ms. Norton. Client information he is talking about. Client 
information with State and local governments so that additional 
service can be provided. You know, with the kind of approach 
you took, which was to get the actors, the relevant actors, 
together, it seems to me that that kind of situation could be 
solved as long as these two gentlemen are meeting their 
obligations.
    Mr. Rainwater. And that is what we are doing, Madam Chair. 
I mean that is exactly what I have been trying to say is what 
we have been doing for the last year and a half are working 
with nonprofits, working with FEMA on the ground, the guys on 
the ground working with----
    Ms. Norton. Reverend Jenkins is on the ground and he is 
here to complain. What is it about working on the ground, be 
specific, that you have found inadequate, Reverend Jenkins?
    Rev. Jenkins. Thank you, yes. I have found the example of 
supposed case management that is being used by the State and by 
FEMA to be inadequate for people who cannot help themselves. 
Obviously, I was able to help them myself. I think the main 
thing is a failure in case management. I would also point out--
--
    Ms. Norton. Now, if there were case management, what would 
it consist of Reverend Jenkins?
    Rev. Jenkins. In our situation where we run a privately 
funded case management operation, because people of faith and 
goodwill are continuing to write checks as well even through 
the recession, it means for us, first of all, that we take 
seriously and respect the dignity of every human being. We see 
them not as a means to an end that is profit nor----
    Ms. Norton. No, sir. I want to know what it consists of. 
Your own values are above reproach. I want to know what your 
case management relationship to the State or the city consist 
of.
    Rev. Jenkins. To the State or city, we have little 
relationship to the State or city.
    Ms. Norton. This is important. Why? Since you are willing 
to help people and you are doing it on your own dime?
    Rev. Jenkins. Yes, ma'am.
    Ms. Norton. What is the difficulty then of dealing with the 
State or the city?
    Rev. Jenkins. In some ways, Madam Chair, I felt that 
ethically I could not participate in the case management system 
that was being designed in that it did not provide the kind of 
opportunity and freedom for New Orleanians to maintain their 
homes in our city nor did it provide for the dignity of all. I 
was in Renaissance Village north of Baton Rouge in the town of 
Baker when a representative told this hugely primarily African 
American group you can live anywhere in the United States you 
want, except you can't go home.
    Ms. Norton. Well, going home might have meant the Ninth 
Ward so----
    Mr. Jenkins. Right. I am building the Ninth Ward.
    Ms. Norton. Well, maybe you can't go home there today. We 
are trying to get people to something that can be home pending 
the rebuilding of New Orleans. And I can understand the 
position you have taken. I think I have got to go back to Mr. 
Rainwater because even if you are doing--you, Reverend Jenkins, 
are doing work, and I must say it is extraordinary work to do 
that on private resources, the State of Louisiana and the city 
of New Orleans and the parishes have a responsibility for 
casework, so does for that matter FEMA, quite apart from any 
private resources so the first place I would turn to for the 
casework would be to the State and to the city and the parish. 
Are there caseworkers assigned to these last remaining most 
vulnerable residents?
    Mr. Rainwater. Yes, ma'am, there are. And I will just--I 
understand Reverend Jenkins' perspective. Many nonprofits chose 
not to work with us on case management because we were not able 
to provide--because of the way that dollars come down, because 
of, you, just the--in some cases it is a little rigid. 
Nonprofits chose not to work with us, and I can understand 
that. And I have tried as hard as we possibly can to make these 
dollars as flexible as possible to provide case management the 
way they would like but in some cases we just couldn't do it.
    Ms. Norton. Couldn't do what, sir?
    Mr. Rainwater. Well, for example, in some cases nonprofits 
felt like, you know, they didn't want to just have a referral 
service, and we have been able to manage some transportation 
and other things working through the network of different 
providers whether it is at the city or whether it is at a 
nonprofit. But what many of the nonprofits wanted to do was not 
only have the case management but also have the dollars to 
provide to the resident to help them to, you know, buy 
furniture, to do other things. We didn't have those dollars to 
do that because of the way some of the congressional 
appropriations language was written. So that has been part of 
the challenge.
    Ms. Norton. So we would go back, then, to the case managers 
from the State of Louisiana and the parishes involved----
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. --who would understand the rules. Are you 
testifying here today that each resident who needs a case 
manager has one?
    Mr. Rainwater. I can't say that every resident has a 
particular--there are--depending on--each resident gets a phone 
call and each trailer who has a resident in it is getting a 
visit from a State employee and a FEMA employee. Their needs 
are talked about there, and then they come back, and what we 
try to do is marry up----
    Ms. Norton. Do you provide transportation to one of these 
three units that Mr. Tombar has made available?
    Mr. Rainwater. Using the city's transportation system and 
the nonprofits out there----
    Ms. Norton. The nonprofits may not be working with you. It 
is the city's responsibility if there wasn't a single nonprofit 
in the whole state----
    Mr. Rainwater. The city of New Orleans is working with us, 
ma'am. And we have meetings. It is the kind of meetings we 
talked about at the last hearing. We are having meetings where 
we talk about what the needs are and then we try to marry up 
those needs with----
    Ms. Norton. Mr. Rainwater, let me ask you this: It sounds 
to me as though, quite apart from the valuable work that Mr. 
Jenkins is doing, that we need a crisis group for these last 
most vulnerable residents, that we need closer interaction 
between FEMA, HUD, the State, and I would dare say the parishes 
that are also involved.
    Would--let me ask the three of you if you would be willing 
to develop a task force devoted exclusively to finding a way, 
an appropriate way--I am not here saying what it is. You notice 
that I am not saying that they should be in housing, that they 
should not be there or--but an appropriate way to find 
solutions for the last remaining victims of Katrina. I am only 
asking for a grouping who would be devoted solely to this task 
so that Mr. Rainwater would not testify, as he has here, that 
we of course called the local housing authority. I am not 
talking about that. I am talking about somebody from the 
housing authority that the State would say you must give us for 
this task force, someone on the ground from HUD, on the ground 
from FEMA who would work on the best way to find solutions 
without any notion of what those solutions should be.
    Mr. Rainwater. Yes, ma'am.
    Mr. Tombar. Yes, ma'am.
    Mr. Garratt. Not only yes, ma'am, but I believe we have 
already established in Louisiana a Joint Housing Task Force, 
with the State and HUD's participation, that has been up and 
running for a couple of months now focused on exactly that.
    Ms. Norton. Who are the members of this group that are 
focused solely on this? What are their----
    Mr. Rainwater. Yes, ma'am. It is a number of--my 
organizations are the Recovery Authority, Department of Social 
Services, FEMA, HUD representatives----
    Ms. Norton. Are there people assigned from those agencies 
whose job is to work on these--all those agencies is telling me 
nothing. They have a statutory responsibility. I am asking for 
a kind of task force.
    Mr. Rainwater. Yes, ma'am. And that is what--we got into a 
data-sharing agreement with FEMA and HUD at the beginning of 
this year that allowed us to look at each other's information--
not just look at information but decide how we were going to 
try to solve problems. And that is, you know, moving dollars to 
a project management, to nonprofits like the lower Ninth Ward, 
where they can help folks finish rebuilding their homes. I 
mean, those are the kinds of things that we are trying to come 
to solutions with. Again, it is complicated. But, yes, ma'am, 
and we will go back----
    Ms. Norton. Would you within 14 days submit to this 
Subcommittee the name of the person on the task force--I am 
calling it that. You can call it anything you want to--assigned 
to working together with the agencies involved and the units 
involved or any others that you think necessary to accomplish 
the task, names that we want, names, who are working 
specifically on finding solutions. I understand that you may 
have a group of whom you have to tell us there are no solutions 
we can find. We just need to know that. But we don't need to 
know by agency. We need to know by person who is assigned to 
this task.
    Mr. Rainwater. Yes, ma'am.
    Mr. Garratt. Absolutely.
    Ms. Norton. And I need to you to know there is a 
presumption, the government exercises a presumption against 
extensions. We don't like the fact that extensions come at the 
last moment. We think that causes, as I said in my opening 
remarks, terrible stress. But that doesn't mean that we think 
the answer here is an extension. At the same time, we are not 
going to see people put out on the street, and at the same 
time, we are not going to allow people to say I demand to be in 
Orleans parish and I am not going. If they are not going, then 
they can't ask the government of the United States to pay for 
them where they are. But at the moment, we can't figure out one 
from the other because the information is too vague and we are 
too close to the August deadline and people are already being 
put out and the press all over the country is running stories 
about how people are being put out of trailers and other 
housing, not being subsidized, without adequate housing being 
provided.
    And the reason this hearing is being held is we don't have 
the answer back on who is right. You would think we would have 
much better answers if we knew very specifically not that one 
agency is calling the other agency to try to get somebody to 
help out and getting some hardworking civil servant to do the 
best that they can, but there is a concentrated group that 
understands we are acting in, we are acting in, we are dealing 
with the people who would be least likely to go out and take a 
telephone number and find Section 8 housing or the like.
    I never did get an answer because I am trying to solve a 
problem rather than simply put answers on the record. But I 
must get an answer better than the answer that, well, we have 
had more than one, Mr. Rainwater, after all, more than one 
hurricane. I can understand how you would be set back on the 
Katrina cottages by the additional hurricane. What I can't 
understand is the failure to produce one single cottage. That 
is what you have got to make me understand.
    Mr. Rainwater. Yes, ma'am. I went to work for the Governor 
of January of 2008. To that point nothing had been done from an 
administrative perspective as it relates to Katrina cottages.
    Ms. Norton. What was the reason for that?
    Mr. Rainwater. I don't know, ma'am. I just know that 
Governor Jindal asked me to take it over and get it moving.
    Ms. Norton. How much money is out there waiting----
    Mr. Rainwater. It is $74 million, although that number is a 
lot less now because we have actually spent money and we 
actually have construction going up in four different sites in 
Louisiana: Lake Charles, Baton Rouge and New Orleans.
    Ms. Norton. For Katrina cottages?
    Mr. Rainwater. Yes.
    Ms. Norton. When is the earliest we can expect the Katrina 
cottages to be up?
    Mr. Rainwater. We expect construction in New Orleans in 
August and in September. We have got sites that we plan to--
about a hundred will be up in New Orleans about August/
September time frame, working with the New Orleans 
Redevelopment Authority. In December the 15th at HANO, we 
expect another hundred to be up. And in Baton Rouge, Louisiana, 
about 42 should be up or be complete by July 31. And in Lake 
Charles, Louisiana, we expect another 70 or so in August of 
this year. So we worked through a lot of the challenges and 
we--you can see construction happening. We also got permission 
from FEMA to build 200 system-built Katrina cottages so what we 
did----
    Ms. Norton. That was a--this is very good information to 
put on the record. Would that take care of all the Katrina 
homes that----
    Mr. Rainwater. Yes, ma'am. By the end of September-November 
timeframe, barring weather, we plan to have 500 cottages up. So 
we are working with the nonprofits, four different nonprofit 
agencies that, you know, have developed the eligibility 
criteria that would take care of Katrina and Rita evacuees. So 
yes, ma'am, we are making progress on that. We have worked 
through a lot of issues there and FEMA has worked very closely 
with us as has the city of New Orleans and the city of Baton 
Rouge and Lake Charles.
    Ms. Norton. Now, the progress you made, and I do know, Mr. 
Rainwater, that you were called to this task that was not 
moving at all and we knew from your prior testimony that you 
have made things happen. The reason that we are concerned here 
is because we need you to make something happen just as quickly 
with respect to these residents. For example, there is a 
program, $869 million State program, that was also federally 
funded. It targeted more than 18,000 damaged rental unites. It 
had resulted in fewer than 1,200 repairs by late March, so far 
as we have been able to understand. Now, these would be the 
units most, I suppose, in demand although Mr. Tombar says he 
has got units to burn out there.
    But in any case what is the reason for the slow progress in 
the one kind of unit that you would think would be most in 
demand, these rental units, with all that Federal money out 
there, 18,000 targeted, 1,200 repaired by late March?
    Mr. Rainwater. Yes, ma'am, there are two programs we are 
running. One is a small rental program that targets what we 
call mom and pop renters. Those are folks that--retired school 
teachers. I have met with a lot of these folks that--a refinery 
employee who had a lot of overtime one year and bought a duplex 
to be part of the American Dream and own property. So after the 
storm, obviously they lost their home. They lost their rental 
unit. The State set up a rental program in 2007 before I was 
there that basically gave someone a letter of commitment that 
they took to the bank. When I got there in January of 2008, we 
said I would give it 6 months to work. It didn't show much 
progress and so we started doing some tweaks to the program. We 
have actually gotten about 1,400 units produced today.
    Ms. Norton. 1,400----
    Mr. Rainwater. Yes, ma'am. Actually 1,439. We expect to 
close or produce another 3,000 by the end of this year. We have 
slowly changed the production and the makeup of the program. 
What we are going to start doing is advancing cash to folks, 
and that is basically--I have to tell you, Madam Chair, I have 
to take some responsibility for that because I should have just 
thrown the program out when I got there in February because it 
was too slow moving. So we are going to start advances starting 
this June, and we are doing a massive outreach program to these 
mom and pop renters to work with them because in some cases 
they are not necessarily professional, you know, managers----
    Ms. Norton. Where are they now?
    Mr. Rainwater. Mostly--New Orleans had a large majority.
    Ms. Norton. Where are they living?
    Mr. Rainwater. Many are back in their homes. And that was 
part of the challenge, that they used their own home money 
obviously and their insurance money to rebuild their home, not 
necessarily their rental unit. And in some cases we have folks 
living on one side of a duplex----
    Ms. Norton. Let me understand this. These people, you call 
them arm and pop?
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. Meaning what, please?
    Mr. Rainwater. Just folks that live in the community that 
bought----
    Ms. Norton. That had homes.
    Mr. Rainwater. Yes, ma'am, they had homes. Right. They had 
duplexes and triplexes and fourplexes in New Orleans.
    Ms. Norton. They wouldn't be going into the rental units, 
then, would they?
    Mr. Rainwater. Excuse me, ma'am.
    Ms. Norton.  They wouldn't be going into the rental units?
    Mr. Rainwater. No, ma'am. Most of them are homeowners. Some 
folks lived on one side and rented out other sides. And so--
where they fixed up one side of the unit and then wanted to 
rent out the other side of the unit. So we are working with the 
folks very closely.
    Ms. Norton. I see.
    Mr. Rainwater. The other program is the Low Income Housing 
Tax Program. And we call it the piggyback program where we take 
low-income housing tax credits and go-zone and take Community 
Development Block Grant money and lay it on top of that. We had 
about 57 projects awarded originally, but right now we have 19 
under construction and that will create about 3,181 units. One 
of our challenges obviously is the credit crunch that we are 
having.
    So what we are trying to do is move--working very closely 
with HUD and the Louisiana Housing Finance Agency, we continue 
to move dollars around and tax credits around to make projects 
work. So we are making progress. We believe that by the end of 
this year, there will be around--if you take the small rental 
and you take the low-income housing tax credit program, we 
think there will be about 7,000 units that will be available. 
Many of those will be affordable units.
    Ms. Norton. Now, we have figures that show about 4,000 
homeowners, a little more than that, have received rebuilding 
money only in the last 6 months and these people I think are in 
trailers. Many of them have inadequate grants and, of course, 
the court and credit crunch and the rest. What is the humane 
and reasonable government response? For these people only got 
it in the last 6 months in the middle of the worst recession, 
what should we do with those people.
    Mr. Rainwater. Madam Chair, what we have asked to work with 
FEMA on is to--and with HUD is to give us time to continue to 
work with those applicants to help them get the dollars they 
need to complete their repairs.
    Ms. Norton. This is where the task force is going to be 
very important because we have got to break down these into the 
units that Mr. Garratt suggested. There are some closer than 
others. Perhaps there are some that won't be.
    The one thing I have to ask you to take into account as we 
consider what to be done because if it takes a statutory 
change, you are going to get it. But one of the things you have 
got to take into account is that there is no building being 
going on to speak of in the United States of America except 
building that is subsidized by the Government of the United 
States. It is as if the recession put a stop when there were 
shovels in the ground. So we had to step up and move matters 
forward. There is no way in which we can fail to take that into 
account with respect to private parties. So I would put that on 
the table as an ingredient for the task force whose names you 
are going to provide us within 14 days.
    Now let me ask about evictions. Are people being evicted 
from trailers as I speak? And if so, can you assure this 
Subcommittee that all of them have adequate housing or have 
been given three sources and have nonetheless refused and if 
they refused, regardless of their circumstances and regardless 
of their disability, they are simply evicted?
    Mr. Garratt. Yes, ma'am. No one has been evicted. Evictions 
have not, in fact, commenced. In fact, no one should expect the 
evictions to commence for some period of time.
    Ms. Norton. What about the August deadline? People have 
received notice that they ought to get out within a couple of 
weeks or within a timeframe, have they not?
    Mr. Garratt. That is correct, ma'am. What we have done is 
provided proper notification to them.
    Ms. Norton. Suppose someone is notified that you must be 
out by July 1st? What would you do if that person were not out 
by July 1st of a trailer?
    Mr. Garratt. I will walk you through the process here 
again. We notified them early on that the program was ending on 
May 1st. On June 1st is when we will officially begin making 
referrals of individuals or households or can begin making 
referrals of households who have not yet vacated those 
properties. But that is a lengthy process, ma'am. We don't 
refer them and then evictions begin the next day. In fact, 
there are a number of steps that have to be gone through and I 
would anticipate that evictions would not begin for some period 
of time while that process----
    Ms. Norton. Even after the August deadline for remaining in 
that housing?
    Mr. Garratt. It is entirely possible, ma'am. You also 
asked----
    Ms. Norton. A lot of this has to do with whether or not 
this task force gets its act together with respect to case 
management. Remember the Subcommittee has taken the position 
that if you are given three resources that meet the tests Mr. 
Tombar has indicated, you must take them. Even if they are not 
where you want to be, even if they are not in the parish you 
want to be you have to in fact do it. Now, we understand what 
we are saying. It may be that you now have to--you now have to 
drive. That is a terrible thing to say to somebody, but you 
have got to drive and spend money on gas that you would not 
have had to do, but I cite to you all the people that are doing 
that in the ordinary course. Now, this would assume this person 
had a job. In other words, we are all having to cut what we 
spend on everything. We are not able to provide ever optimum 
resources. Even those of us who have been fortunate in life do 
not have optimum resources. So we are not going to put on the 
government a burden that it cannot bear.
    But we are certainly not going to say to somebody that here 
are three resources and you have got to find your own way to 
them or get you cane together or your crutch or get you 
somebody, you who have no children in the area, get you 
somebody to get out there and find it. That is just as inhuman 
as an eviction. That is why I would be satisfied with a task 
force doing what it can. And if you are assuring me there will 
be no evictions, then I am satisfied with that answer.
    Mr. Garratt. Ma'am, I am assuring you that there will be no 
evictions on June 1, and assuring you that in fact the process 
for beginning the actual evictions is a lengthy one.
    Ms. Norton. Are you assuring me that there will be no 
evictions on August, whatever is the final date----
    Mr. Garratt. No, ma'am, I am not. However, I can assure 
you, to follow-up previous request that you had, every single 
one of these occupants has received a minimum of three 
properties at the fair market rent made available to them and 
in some cases as high as 90 offers. So every one of the 
occupants has, we can assure you, been offered a minimum of 
three housing resources within a reasonable commuting distance.
    Ms. Norton. We understand also the difference of the dates 
among you. There is the May 1st date, there is the August--the 
August 30th date for referrals by HUD.
    Mr. Tombar. That is the termination of the transition of 
closeout plan, the program that follows the DHAP program which 
ended on----
    Ms. Norton. Excuse me. Would you explain termination of the 
what? What it means.
    Mr. Tombar. The Disaster Housing Assistance Program that 
you mentioned in your opening remarks terminated for Katrina 
and Rita victims at the end of February. Secretary Napolitano 
and Secretary Donovan worked together to make sure that some 
31,000 families would not be displaced and so put in for 6 
months through the end of August of this year a transitional 
closeout plan to allow those families time to either, one, 
convert to the Housing Choice Voucher program for which I have 
testified that there are ample resources available for families 
that are eligible for that program and units available in many 
of the communities in Louisiana or to transition----
    Ms. Norton. Market rate units with subsidies provided by 
the government where necessary.
    Mr. Tombar. Yes, ma'am. Or to transition to self 
sufficiency if, in fact, those families are not eligible for 
that program. So that program----
    Ms. Norton. In other words, transition to self sufficiency 
if ineligible. I understand that. In other words, there might 
be some people who are working but----
    Mr. Tombar. Yes, ma'am.
    Ms. Norton. And therefore would not be eligible. But what 
would be the transition assistance in that case?
    Mr. Tombar. In that case those families, the rent that they 
were paying in February of this year was--their contribution to 
that rent was increased by $100 each month thereafter. So the 
government--for example, if a family had a rent of $600 in 
March, we would have paid--the government would have paid $500 
on that family's behalf and their contribution would have been 
$100 and each month the family's contribution went up $100 in 
the--and the government's went down by $100.
    Allowing time for those families that were eligible to move 
into the Housing Choice Voucher program which would cover a 
substantial amount more of their rent by the government. The 
government will cover that with resources through that HCV 
program.
    Ms. Norton. We understand there is a hardship there, but 
the hardship is they have to pick up more of the cost of 
housing through their own income. But I understand that will 
mean, therefore, that the decision has been made that could 
happen, that we are not dealing with a family for whom that 
would be an intolerable hardship.
    Mr. Tombar. Quite frankly, ma'am, part of the challenge is 
that you talked about the problem with extensions. Having seen 
extensions before, families just were not availing themselves 
of the resources----
    Ms. Norton. That is why I am sending two messages in this 
hearing. One for you, but one for the families. I want to 
compare themselves with other families in the United States and 
they will see what I mean. I hate to say it, but there are 
families who would love to live in a trailer rather than a 
Holiday Inn in one room with three or four children today 
because they couldn't pay their mortgage through no fault of 
their own. So two messages are sent. That is why I am trying to 
make sure the government does its part by having the 
appropriate case management and the agencies working even 
closer together than they have.
    Now, Reverend Jenkins, you had----
    Rev. Jenkins. Madam Chair, I respectfully disagree with 
some of the testimony that has gone forward and again I have to 
say based on anecdotal evidence. I believe that--I do not 
believe there are a thousand Section 8 units available in New 
Orleans, or if so, I can't find them, or they are not 
affordable, or our friends----
    Ms. Norton. By Section 8, you make them affordable if they 
come within a certain limit, don't you.
    Mr. Tombar. Yes, ma'am. What I was testifying to is the 
fact that, as you said, unlike Washington, D.C., and most 
communities around the country, there is in the Housing 
Authority in New Orleans an ample supply of vouchers. There is 
an oversupply of vouchers for eligible families as well as--and 
this is a recent development over the past number of months--as 
well as landlords who have repaired their homes and repaired 
their rental units and have made them available to eligible 
families.
    Ms. Norton. Now wait a minute, Mr. Tombar. And maybe people 
may not be aware of this; what made this happen only in the 
last few months?
    Mr. Tombar. It is the fact that, as Mr. Rainwater testified 
to, that their program has started in earnest and has made 
units available. And, quite frankly, it has been almost 4 years 
since the storm, and that landlords have taken advantage of the 
fact that they have settled with insurance companies; they have 
gotten their own resources and financing, taken the government 
subsidies that have been provided, and have used that to bring 
these units back into commerce.
    Ms. Norton. Mr. Jenkins, what did you have to say to that? 
Of course, this has only recently happened.
    Rev. Jenkins. Only recently happened. And I would say that 
the quality of case management has to do with direct services. 
We work with people no matter how long it takes. We do provide 
transportation. And we walk with them through the process and 
not simply refer them to it.
    Ms. Norton. This is the testimony that is most important in 
this hearing, the notion of what Rev. Jenkins is saying. We are 
dealing with the most vulnerable--you know, if I am sitting 
there on an ordinance, and I was, damn, they are going to have 
to move me; when I am able to get out of here and work, that is 
one thing, but we are focusing--you have done a good job with 
respect to people who in fact should move themselves. What Rev. 
Jenkins is saying, and I recognize he deals outside of your 
matrix, but what he is saying out of his experience is that 
these people are not likely to move unless there is expert case 
management.
    Rev. Jenkins. Yes, ma'am.
    Ms. Norton. I mean, that is the bottom line. And we are 
going to be looking at that, given Mr. Tombar's testimony, more 
than anything else; what do we do to persuade people, and then 
to make people understand? Carry my words from the 
Subcommittee, so they know that extensions ad infinitum are no 
longer possible. We won't let people be put out, but we believe 
the State has over-depended on extensions--that is because Mr. 
Rainwater only recently got there--and on our notions of 
outrage at how slow the State and FEMA were in the first place. 
But now we see most of the people have been dealt with. It is 
only the people who can't take care of themselves.
    And Mr. Tombar is going to have to submit to me, Mr. 
Jenkins, within 14 days, by parish, where these houses are. So 
he has testified here. And although we have not made people 
stand and take oath, they are all under oath. So he is going to 
have to provide the backup here.
    And the only discrepancy I see here is, apparently through 
the State's work, Mr. Rainwater's work and the work of others 
in the parishes, there have been people to come forward; we get 
to whether or not there has been adequate communication here.
    Mr. Tombar said that all these people have already been 
given--is that it? Everybody on the list has already been given 
three sources. Without even going down the list, everybody 
already has their three sources.
    Mr. Tombar. Yes, ma'am.
    Ms. Norton. So that does point to case management as a 
notion.
    Now, if the three are rejected, do you go back with three 
more, or how does that work?
    Mr. Garratt. That is really ours to take, ma'am.
    We have often gone back many times with additional ones. As 
I indicated previously, in some extreme cases, we have made as 
many as 90 different referrals to----
    Ms. Norton. What would make somebody reject 90 different 
referrals?
    Mr. Garratt. I would suggest it would be an interest in not 
moving.
    Ms. Norton. I think that would be the case often for people 
who are working. We are dealing with people here who are often 
not working. They will be away from family. That is a hardship. 
But I don't think--I think we are to the point where we can't 
look at anything except the available housing as close as 
possible, but there may be limits on that. And I am impressed, 
as Mr. Tombar says--you say in New Orleans itself?
    Mr. Tombar. Yes, ma'am.
    Ms. Norton. That is close enough to me right there; it is a 
city no larger than the District of Columbia.
    Rev. Jenkins.
    Rev. Jenkins. Yes, ma'am. Thank you.
    Many of the people whom we are talking about do not have 
cars. The state of public transportation in New Orleans has not 
been addressed. If you live in the east, in New Orleans East, 
the possibility of having a job in the central business 
district where the tourists, the hotels, et cetera, are is nigh 
because of the state of public transportation.
    Ms. Norton. But we ought to separate those who work.
    And Rev. Jenkins, look, we are not guaranteeing that you 
have the same income used for the same purposes.
    Rev. Jenkins. Right.
    Ms. Norton. All over the United States, people are having 
to pay more for transportation. They may have to pay more to 
get to their job because New Orleans does not have a public 
transportation system. What are we supposed to say to those 
people, for example, who will have to move from a trailer 
further from--they are still in New Orleans, but will have to 
find some other way to get to work? What is the government 
supposed to say to those people who have been given a place, 
three places, but they are not as close to their work as most 
people increasingly who don't have the highest income, what is 
the government's response supposed to be in that case?
    Rev. Jenkins. I would hope the government's response to 
case management would be to teach people how and walk with them 
and help them find how to get to their jobs.
    Ms. Norton. Well, that is a reasonable answer, and it does 
seem to me that that is the case. You take somebody from one 
end of the parish who seldom has gone to the other end, and you 
go there and the transportation isn't as good or may even be 
hardly available, it does seem to me that, of the three sources 
that are offered, one has to work with that person as if that 
were a person, a human being, not just a place that you can go.
    So I would ask that the task force look into the reasons 
for the resistance. They often have to do more than 
convenience; they may have to do with transportation.
    Now, let me ask you this, Mr. Rainwater. In the District of 
Columbia, because the people who would trouble me most are the 
people who are disabled and don't have jobs. Indeed, let me ask 
Mr. Garrett, wouldn't a disproportionate number of these be 
people without jobs who are not going to ultimately be going to 
work, but they are fairly isolated because of their age or 
their disability?
    Mr. Garratt. Ma'am, I would be speculating. We typically 
don't engage in income verification sorts of things as a matter 
of practice with this population; we simply don't have the 
authority to do that. So it would be pure speculation.
    Ms. Norton. Well, Mr. Tombar, of those who have been 
offered, you would have more of that information on these 
disproportionate people who don't work every day--when I say 
"disproportionately," without knowing any percentage.
    Mr. Tombar. Actually, I don't have that information. But I 
do have the information to the previous question you asked.
    Based upon the case management contractors that FEMA funds, 
some of the reasons that we have heard repeatedly from families 
about why they refuse to move into the DHAP program was the 
households who were concerned about paying rent after the DHAP 
program ended, the households did not want to relocate----
    Ms. Norton. Wait a minute. So these would be people who 
were able to pay rent then because you provide a subsidy, 
right?
    Mr. Tombar. Well, through the DHAP program, we did in fact 
provide----
    Ms. Norton. No, no. I am talking, for example, I am 
assuming these would be some of the Section 8 people that you 
told----
    Mr. Tombar. Certainly. The Congress, as I said, provided 
$85 million to convert those families who would be eligible for 
subsidies to a permanent program.
    Ms. Norton. So why would they be concerned about the rent 
since, if they are eligible, you will help them?
    Mr. Tombar. Exactly. I don't know the answer to that 
question, but I do know the answer----
    Ms. Norton. But that is an important thing to get on the 
record.
    And for the task force that I am now looking at, I 
amassuming that the case management may help people 
understand--you know, it is really interesting, people respond 
once they understood--I, stupidly, in my exercises, lifted some 
weights, and they gave me some things to do. He gave me 
something to do that is the thing that I least like to do. And 
I see what the problem is. If he had only told me why to do 
this thing, as the way I sit and walk, I think I would be 
doing--I had to figure out for myself, why would he give me 
this thing that I like to do least? I understand only because I 
have thought about it myself, having left the 3-week period 
they give you to go and somebody tells you what to do, I 
figured out why he wanted me to do this thing I hated to do, 
and now I have begun to do it.
    Now, most people are reasonable. And if a caseworker who is 
patient, who has lived there--and most of them have--with the 
people who have been the most unfortunate people in society 
since Katrina, if they have the kind of approach to these 
people, who are sitting in these homes, recalcitrant and 
resistant, take the time to indicate what is available, 
particularly if they compare them to what is happening to 
families all over this country today, if they tell them that 
the Subcommittee is not willing to recommend extensions ad 
infinitum, that we are in the last pace here, that we are not 
going to leave them stranded so they can't get from one end of 
Orleans Parish to the other, that there are ways to move to 
jobs because your task force is going to make sure that that 
communication is given.
    Indeed, before I go further, Mr. Rainwater, the District of 
Columbia will provide, if there is a disabled person--using, I 
am sure, there must be Federal funds in this--you can call and 
get transportation to go even to recreational events. Is that 
provided in New Orleans?
    Mr. Rainwater. Yes, ma'am. We work through different 
nonprofits, the city, continuums of care that we have funded 
about $21 million for rapid rehousing, also to provide 
transportation for folks.
    Ms. Norton. See, if all of that is put on the table at the 
same time that one is talking to a person, the resistance 
begins to melt, particularly when they understand that once all 
of this is made available to you, you are not going to get 
another chance. But you have to have all of that in the package 
to make people, who have every reason to be resistant, 
understand that we are surrounding you with the services that 
will be necessary.
    In the District of Columbia, if your children live in 
Northwest and you live in Southeast and you say, I want to 
visit my family once a week, a van will come and get you once a 
week. They know that, in the long run, that means you are not 
going to be going into the emergency room or into some home 
where it costs us $80,000 a year to maintain. They know there 
is much to be said in the public interest.
    Mr. Rainwater suggests that those kinds of services are 
available. That person doesn't get their grown son or daughter 
to come see them more often than that anyway. So they can be 
assured that at least what they are accustomed to is not going 
to fall away altogether. I think this can be done. It would 
take sensitivity. It would take the agencies working together.
    I am sorry. I may have interrupted, I think, you, Mr. 
Tombar.
    Mr. Tombar. Yes, ma'am. Some of the other reasons that 
families have indicated that they did not want to move was 
because they prefer to stay in the rent-free, disaster-based 
assistance rather than HUD or State programs that would require 
a contribution towards their monthly rent.
    Ms. Norton. See, we can easily take care of that one. There 
is no free lunch. And you can quote the Committee Chair, there 
is no free lunch, even for those who have been hardest hit.
    Mr. Tombar. Certainly. Others have indicated that they were 
concerned about getting into government-subsidized housing, 
even though it was explained to them that this was not "HUD 
housing," but rather private housing that would be subsidized 
with rent----
    Ms. Norton. You do have to make people who don't want to 
ever be said to have been wards of the State in any sense of 
the word understand that this is not the same thing at all. 
This is for people who have done all they can, working and 
living in just the way we ask people to do, abiding by all the 
rules, but find that the cost of housing where they happen to 
live is beyond any reasonable means. Yes, it does have to be 
explained to people who don't want to be said they are on 
welfare.
    Mr. Tombar. And finally, as I initially indicated, that 
families did not want to relocate from the THU that was on a 
private site where they were rebuilding their home.
    Ms. Norton. Yeah, now, those are the people that you need 
to work with hardest because here is where the Congress may 
need, if you don't do it; if we do it, it is going to be much 
to your not liking.
    It seems to me that Mr. Garratt made a reasonable start by 
talking about people within certain time frames rehabilitating 
their homes. And let me say this for the record, it is in the 
national interest, as consistent with the Stafford Act, that 
people who are willing to rebuild their own homes with some 
government assistance; that is rebuilding New Orleans; that is 
showing that the Stafford Act and the other Federal statutes 
work.
    We do not believe it is in the national interest to snatch 
away a trailer that is subsidized but not nearly what the 
subsidy would be if that--I don't know, but might well not be 
what the subsidy requires if that person would have to go off 
his own land, where he is living probably under conditions that 
he wouldn't tolerate and that we wouldn't tolerate, if we had 
to put that person in some other housing.
    We think it is in the national interest and the public 
interest for that person to reserve their resources to rebuild 
their own house so that in fact they require less and less 
subsidy from the Federal Government or the State government. 
Are we agreed on that?
    Then we also have established that the trailers are not 
going to be put to good use by another family, but they are 
going to be scrapped. That is already a loss to the government. 
We don't like to do things like that. We are having to do that 
in these cases. These are not people in the formaldehyde 
trailers where the people want to get out of the trailers. 
These are people who want to stay in them in order to get into 
their own homes, and we know, given ordinary conditions, how 
close they would be to rehabbing their own homes.
    We know that the State has been slow in getting them the 
assistance. We know that, for example, to quote from one 
example, a very small house blown down by the hurricane, 
disabled--this is an example of the kind of person you are 
dealing with. A 67-year-old person, the State gave her $28,000. 
It wasn't enough to rebuild. I can't imagine that it would be 
in the public interest for her to abandon land she owns.
    Would she have to use the $28,000 for a rental, Mr. 
Rainwater? I mean, she got $28,000, but it is only for, 
apparently, rebuilding. What will she do with that money?
    Mr. Rainwater. Madam Chair, in some instances, there were 
people that did use money for living expenses. And what we are 
trying to do right now, as I stated earlier, is create some----
    Ms. Norton. Is that within the rules?
    Mr. Rainwater. Not necessarily. I mean, I don't know how 
many times it happened, to be very honest with you. FEMA did 
provide assistance and HUD did provide assistance to folks as 
well to help them live while they were working through issues.
    Ms. Norton. But this $28,000 that she got----
    Mr. Rainwater. That is subtracted from whatever insurance 
she had, and then the $28,000--there is a formula that you use, 
and so typically it is----
    Ms. Norton. But she was supposed to use that to rebuild?
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. So I am assuming she wants to still rebuild?
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. I am going to ask you about the $2.4 billion in 
a minute, but we will have complaints, whenever you do imminent 
domain, everybody says they haven't given me enough money. Now, 
she is saying it isn't enough to rebuild, except I believe her 
these days because of what has happened and what has happened 
to the economy.
    Why are people being given too little money to rebuild?
    Mr. Rainwater. The way the program that was set up in 2006, 
2007, the Road Home Assistance Program, was developed based on 
a formula.
    Ms. Norton. She is 67. She is rebuilding out of a pension 
or out of her own resources.
    Mr. Rainwater. The cap that the State created and was 
approved by HUD was $150,000. It is basically a ratio of how 
much insurance you have got. What we have tried to do is we 
have created an additional compensation grant for people who 
were either elderly or low income to help them try to complete 
that.
    Ms. Norton. She may be getting some of that as well.
    What happens to someone who hopes that the insurance is 
being put aside, the $28,000 is being put aside, she still 
can't rebuild? What should she do?
    Mr. Rainwater. We are in the process of creating this pilot 
construction program to help people. There is no doubt that 
what we have seen in Louisiana in some instances of an elderly 
person, a contractor took money or bids were too high; we work 
with a number of nonprofits who can go in and assist folks, who 
can buy materials at a wholesale rate, go in and help them 
finish the repair to their house. So we are trying to push 
those dollars as far down as we possibly can.
    Ms. Norton. So during the boom time, some of these people 
did try to rebuild in boom time, which just brought down the 
country.
    Rev. Jenkins. Madam Chair, may I say something?
    Ms. Norton. Please, sir.
    Rev. Jenkins. Thank you, ma'am.
    I want to say that the churches and the nonprofits often 
step in and fill the gap. We continue to host huge numbers of 
volunteers who come to New Orleans, who pay for their lodging 
with us in New Orleans now, and whom we charge to buy the 
material used to fix up the 951 houses that we have gutted and 
that we are rebuilding. So the people who come to work are 
charged by us, and we are building and rebuilding houses for 
people who have been robbed----
    Ms. Norton. So here is a disabled 67-year-old. She got 
$28,000 from the State. She probably has some insurance money. 
Is she the kind of person that could have the rest of it done 
with volunteer help and the like?
    Rev. Jenkins. Yes. We are doing that with volunteer help. 
And we are doing it on a handshake for people who have no 
money. For people who have money, they are paying for their 
supplies to rebuild. But we have yet to lose a penny on any 
poor person who comes into money. They pay us back as soon as 
they can.
    Ms. Norton. Well, Mr. Rainwater, we do still hear--and we 
have some of them from the District of Columbia--of people 
coming in doing marvelous things. What relationship do you have 
to these volunteer groups who, for example, the 67-year-old 
lady I just talked about, if the State got together with the 
volunteers, this lady might get this home built even in this 
climate?
    Mr. Rainwater. Yes, ma'am. So we started developing a 
program in the last quarter of last year-- it is this pilot 
project that we just sent to HUD for approval--which would 
begin to move some dollars down to nonprofits, like the 
Reverend----
    Ms. Norton. Now, wait a minute. First of all, a lot of this 
is being done by volunteer work?
    Rev. Jenkins. Yes, ma'am.
    Ms. Norton. I like what you are saying, but I am not 
understanding what it is that the nonprofits would do.
    Mr. Rainwater. Well, basically what we try to do is help 
them to purchase building materials, pay for some of their 
administrative costs----
    Ms. Norton. This is so common sense, I am almost dying 
here.
    Mr. Tombar, these are the most motivated people in 
Louisiana. They have worked all their lives, got a piece of 
land and got a house. You are hearing that, limited though they 
are, the nonprofits are seeing the potential here of purchasing 
materials themselves because these are people with some 
insurance money they haven't spent. These people want their 
house back; they have got a piece of land.
    You heard Mr. Rainwater say that they are asking for pilot 
funds from HUD in order to speed up this volunteer effort, most 
of which doesn't even come out of government funds, so that 
these people could in fact get the materials to begin doing 
what is necessary. What is the status of that approval?
    When was it submitted, Mr. Rainwater?
    Mr. Rainwater. It was submitted towards the end of last 
month. So it is within a reasonable time frame, ma'am.
    Ms. Norton. Are you aware of that, Mr. Tombar?
    Mr. Tombar. I was not, but I am aware of the fact that the 
CDBG program provides great flexibility, and this is the type 
of----
    Ms. Norton. Just a moment. You are saying Mr. Rainwater 
already can do this then?
    Mr. Tombar. No, ma'am. He is going through the 
administrative process it sounds like.
    Ms. Norton. Are you asking for CDBG funds that exist, or 
are you asking for new pilot funds?
    Mr. Rainwater. There are two different requests. One was we 
had Community Development Block Grant money that we took out of 
one of our programs, an infrastructure program, and sent an 
action plan amendment to HUD, which they are very positive 
about.
    We are also working with FEMA and some of the congressional 
delegation, on taking about $9 million that was for case 
management to take it and put it into this creative nonprofit 
pot.
    Ms. Norton. Mr. Tombar, we are already at work on the task 
force here as you can see. Could I ask that those approvals be 
speeded up, as a request from the Subcommittee, that those 
approvals be done within 30 days from today? I know that that 
may be less time than is normally the case, but we are up 
against a deadline, and we can't push the deadline without 
pushing ourselves and the government as well. And since you are 
a pilot program, we have a new administration that is open to 
innovation. You see what the State is willing to do. Would you 
be willing to press for an approval--that the approval period 
would be over and done with in 30 days? We are up against an 
August deadline.
    Mr. Tombar. I will guarantee you that we will review, 
provide technical assistance, should we find any issues with 
the plan as submitted by the State, and work with them in the 
next 30 days to resolve those and give full approval.
    Ms. Norton. I thank you very much. That is very important. 
Please get that information to us within 30 days of where we 
are and whether the approvals have been done.
    I think we have begun to deal with the people who Mr. 
Tombar says--remember, we have established that there is a 
place for everybody to go without being put on the street, one. 
Two, we have established that they have been given three 
sources. Three, we have found that the difficulty may be in 
case management so that people understand they are at the end 
of the road, and what services will surround them when they 
leave the present situation in which they find themselves.
    That leaves us with, so far as I can now see, the trailer 
people, where Mr. Garratt has offered some important 
information, at least to begin to work on, and that is the 
people--367 within 5 months, 298 within 11 months, 50 percent 
at least a year of--I guess this is started rebuilding--509 
would be at least a year, and 711 not rebuilding at all.
    Now, these people need to be separated and broken down. 
Now, the people who are not rebuilding, we don't have enough 
information. All we have is this helpful information. Let us 
establish this, if there is a reasonable chance that a person 
will contribute to the economy of the State of Louisiana by 
becoming a homeowner able to pay property taxes and able to 
contribute thereby to the parish in which that person lives, it 
is within the interest of the government of the State and the 
parish to in fact assist that family or individual toward that 
end. "Reasonable" is an important point here.
    I don't know about the 711, whether the people are not 
building at all, whether it is reasonable. The reason these 
figures are of any moment at all is because these people that I 
am talking about that Mr. Garratt has figures on are all in 
trailers. We have also established that it is not as if the 
trailer is going to go to some other beneficial use.
    The task force that is looking at those in rental units, 
those in section--I want you to stay right in here, Mr. Tombar, 
because some of these may in fact turn out to be people who 
need HUD assistance. But we have got to disaggregate these 
numbers to find out what we can do. We cannot fail to take 
account of the fact--and let me say this for the record; were 
it not for the New Deal vehicles left to us, unemployment 
insurance--FEMA was not one of them--but Social Security, 
Medicare and Medicaid, which are the next New Deal, the Great 
Society, were it not for them, where we would be is where my 
parents were, on bread lines. All 50 States are down. We are 
only beginning to see the rattlings of the bottom. You know 
when you have thought about it and you say, my butt is here, so 
I think I am at the bottom? That is the most that the analysts 
are willing to tell us. That is great news. That really has the 
public going out and actually buying something. Because the 
least optimistic of the analysts have said, we can't say we are 
at the bottom.
    We are not falling as fast, we know this. The greatest 
lagging indicator is employment. And yet these people are 
within some reasonable distance--at least some of them, I don't 
know about the 509, and none of us know yet who are at least a 
year out because it could be a year and some distance. But we 
know that whatever else is keeping them from rebuilding, not 
only is it Katrina; it as an economy that they had nothing to 
do with making fall on its face. Because these are all 
homeowners, these people were taking care of themselves, the 
able-bodied people who were taking care of themselves are the 
top of the list as far as I am concerned because they are 
people who are used to providing for themselves.
    I am going to ask the task force--because I can't tell 
you--I know kind of what to do with these other folks, 
sensitive case management, the pilot program that Mr. Tombar 
kindly said he will do all he can to see it speeded up. The 
Section 8 housing is available. This is a whole lot more 
hopeful than I thought this hearing might turn out to be, which 
is why oversight hearings are important in the first place.
    It may be that FEMA, or this Committee, this Congress, will 
have to act with respect to these trailers because we will look 
like complete idiots putting people out of trailers who, but 
for what the State could have done, what the economy could have 
done, would be building their housing and then thrusting them 
on the housing market. I don't even know, Mr. Tombar, whether 
or not they would displace or eat up some of the Section 8 
housing--which really shouldn't go to them, all things being 
considered.
    If, in fact, as Mr. Garratt says, they're within X or Y 
months of building--it may well be these are the people who 
have jobs--we don't want to crowd people from one sector onto 
another sector. But we don't know enough about them.
    Now, I am going to ask the task force--and this one will be 
60 days because these people are not the people who are--well, 
I should make that 45 days because these people may also find 
themselves just--Mr. Garratt has testified there will be no 
evictions. Let me see what kind of time frames we are under 
here.
    Mr. Garratt, I amsimply trying to give the task force time 
to see what these figures mean. That is the only fair thing to 
do. And I appreciate the figures you provided. You testified 
that there would be no evictions; is that right?
    Mr. Garratt. No, ma'am. What I testified to was that 
evictions would not begin for some period of time. We haven't 
even completed the termination and notification process, nor 
have we referred at this point anyone for eviction. That won't 
occur until, at the very earliest, the end of this month. And 
even then, referrals will be taking place over some period of 
time. And even then, there is a process, a rather lengthy 
process that must be followed before that can even begin.
    So what I testified to was, they won't begin on June 1, and 
I think it is likely to be several months, some period of time, 
before they would actually begin.
    Ms. Norton. All right. That is good enough for me, 45 days. 
We would like more information, and let me tell you who we 
would like this from.
    Mr. Garratt, these people are in your trailers. When you 
gave figures about how much time it would take, all things 
being considered, did that information come from your own 
evaluation, or did it come from Mr. Rainwater, or HUD?
    Mr. Garratt. I would say that that is probably information 
that came from both of our efforts. We are in fact operating in 
a joint environment in the field, so these are collaborative 
efforts.
    Ms. Norton. Given your testimony that you are not trying to 
precipitously evict people, I am not going to do anything here 
but speak to the need for analysis-based on the figures Mr. 
Rainwater, Mr. Tombar and Mr. Garratt gave about the number of 
months. Quite a few people were within building, given the 
fact--now, these people have resources. We are talking about 
people who have some insurance money. I am sure hope this means 
that people understand you shouldn't be spending insurance 
money. Do people understand that? Do people understand that? Or 
does the insurance company only give the money when they see 
that you are--if you say you are going to rebuild--rebuilding?
    Mr. Rainwater. No, ma'am. One of the challenges that we 
have had in Louisiana is there are a number of lawsuits related 
to the insurance companies. And so what we have been doing last 
year, and this year is working with residents to make sure they 
get their Road Home grant. We have taken ourselves mostly out 
of the debate between the citizen and the insurance company so 
that they----
    Ms. Norton. But I'm just asking, if she has got $28,000 
worth of insurance, is she just given that money and told, 
here, go rebuild, or go do something else?
    Mr. Rainwater. No, ma'am. There are two choices. One, you 
can rebuild where you are at; you can rebuild in Louisiana but 
at a different location; or you can rebuild out of State. Each 
time someone gets a grant though, they sign a 3-year covenant 
that requires that they meet the new elevations, that they 
build to the new building code or they repair their house. So 
there are requirements.
    Ms. Norton. So it is true that we are talking about people 
who have some resources?
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. And when the economy recovers, it may be that 
it is going to be, God help us, easier to rebuild because we 
were working in a very elevated, escalated, really false, made 
out of derivatives and non-money, really, false kind of 
economy. Now people need, work and contractors need business, 
as they say in the city, they need some business. So it may 
turn out to be easier to build than it would have been even 
when recovery began and was going on because people will be up 
and running now, the contractors will be up and running.
    In 45 days, I am going to ask the task force simply to give 
us information. We don't have any basis to know where these 
people are. The only strictures we have are ones imposed on all 
of us alike, and that is the economy. And I have indicated that 
the Subcommittee continues to be the overriding public interest 
in keeping these people who are--people who own homes are the 
most productive people in the society. So we would have an 
interest in helping them help themselves. They have a habit of 
saving. Most of them have owned homes and bought homes that 
required them to save. And we believe that they will be 
building and rebuilding the parish and rebuilding the State and 
becoming taxpayers.
    Now, you may find differently. This is a rebuttable 
presumption. It is certainly rebuttable with respect to the 711 
that Mr. Garratt says are not rebuilding at all. We can't tell 
what in the world to do there. But at some point, the 
government has to fish or cut bait. That may mean with the 
trailers as well, as harsh as that seems. The Stafford Act does 
not allow for government to perpetually provide trailers. That 
would be, even for these self-sufficient people, an enabling 
kind of activity and an activity that encourages dependency.
    The reason we have great sympathy with these people is 
these have been independent people. Mother Nature took over 
from them and took away their independence. So we don't want to 
make them any further dependent than they are, but if they 
can't rebuild at all, ultimately they are going to need some 
case work or some other reality that they are going to have to 
come to grips with or else they are not operating in the public 
interest. The area is not being rebuilt. Their land is not 
going to contribute to the tax base of the parish or of the 
State. And they are going to have to help us help them.
    I don't know what to do about them yet, and I don't expect 
you to know. So all I am asking, in 45 days--and we are going 
to send you this in writing--is to know what it means--Mr. 
Garratt's helpful figures. And he only meant them as an outline 
of what we know now. You may know more or your own offices may 
know more, but what it means for people within 5 months, 11 
months, at least a year, what that means, 50 percent would take 
at least a year, want that broken down; send to the Committee 
as much information as you can. This information will be 
necessary because we will have to decide whether or not any 
extensions are called for, and if so, for whom.
    We believe that the State has been enabled by the 
extensions, even though we have felt we needed them. We think 
the State has understood that we don't strand people. And just 
because there has been a change in administration, do not think 
that the standard has changed. We do not like that the decision 
gets made at the last minute. We do believe that it is 
permissible, so long as there is adequate case work going on, 
to continue to tell people they have to leave now. In other 
words, if people are given notice--and I don't know what the 
usual notice is, let's say it is a month's notice, but they 
have all of the surrounding--we don't think it is improper to 
give people notice that, let us say, in the middle of June, 
that by the middle of July, one of the three sources that they 
have been given is one they have to take. And this is a 
service.
    So we are not trying to stop you from doing what is 
reasonable. But we are saying that it is not permissible to do 
that without very sensitive case work that lets these people 
understand that they are being given that date for a reason. 
And at that point, they subject themselves to eviction. Because 
a State then has done all it can; it has provided you with 
transportation. It has provided you with a case worker you can 
always be in touch with. It has provided you with a way to get 
to your medical services. It has provided you with information, 
if you work every day, about how to get to your job even though 
it is at a part of the parish that normally is harder to get 
to. The government can't do the impossible.
    So we are not trying to stop you from giving people notice. 
We are trying to let you keep doing that so that we are not 
left at the last minute with the need for another extension, 
and we are not left at the last minute with people thinking 
that the government has done it before, so they are going to do 
it again. But the shorter time limits are based on being 
assured that we are doing what we are supposed to do within the 
time limits that have been previously set.
    And this Committee will feel free to have further hearings 
next month if we find that the only remedy you are leaving for 
us is to extend the deadline. That is the least, that is the 
least acceptable remedy to the government. Because that will 
mean to this Subcommittee that the government hasn't done its 
job, not given what Mr. Tombar has told us, not given the 
figures that Mr. Garratt has given. If in fact there is a need 
to extend it, the greatest reason will be that the combination 
of forces recognized here--except for Rev. Jenkins, who 
testified before us--have not done what is needed to move 
people out. And we are not willing, because the government has 
failed, to say that the government can keep on failing. So 
expect there will be another hearing next month, unless the 
figures you provide us indicate you are making the necessary 
progress.
    Now, I realize that I have kept people long beyond what 
these hearings keep you, but you know why? Because these 
hearings are usually about, "I got you, Mr. Rainwater," "see, I 
told you, Mr. Garratt," "see, Mr. Tombar, you haven't done what 
I wanted you to do." I don't believe in those kind of hearings. 
The hearings that serve us best are hearings that help us help 
you solve a problem.
    Mr. Rainwater, one question before you go. The figure that 
has blown me out of the water since I first heard it was $3.4 
billion held by the State of Louisiana that could be used to 
rebuild Charity Hospital. Mr. Garratt or Mr. Rainwater, your 
forces couldn't get yourselves together. The Senator from the 
State then went to a nuclear remedy and said that there would 
be arbitration. Then the new Secretary for DHS said, oh, no, we 
are going to get it together, and we will have some remedy that 
is within what Senator Landrieu has offered.
    So the first thing I want to ask you, sir, you testified 
here--it must have been 2 months ago--how much of the $3.4 
billion has now been put to good use in the State of Louisiana?
    Mr. Rainwater. Madam Chair, you are referring to the 
Community Development Block Grant money, the Disaster Recovery 
Community Development Block Grant money?
    Ms. Norton. It is the public assistance program, $3.4 
billion.
    Mr. Rainwater. Yes, ma'am. Let me look at my numbers real 
quick. Just bear with me one second.
    Ms. Norton. Sorry. This is the last question.
    Mr. Rainwater. Madam Chair, of the $3.6 billion, so far we 
have spent down $2.8 billion. And what we have done since our 
last hearing is, FEMA has sent down some decision teams that 
are working. And what we have done is we have broken up our 
groups down the State to some real action-oriented teams that 
are making decisions. So we have actually spent down from the 
$3.6, we are at about $2.8 billion now that are unspent.
    Now, some of those have to do with the gaps that exist, and 
we continue to work through those issues. FEMA's Transitional 
Recovery Office, Acting Director Tony Russell, and the action 
people that they have sent down, are doing a very good job. And 
we are----
    Ms. Norton. This is good news. It is progress.
    Let me ask you, you have spent down from $3.6 to $2.8, or 
you have obligated----
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. What are those obligations for?
    Mr. Rainwater. A multitude of projects, anything from 
Southern University of New Orleans to Tulane University to 
Delgado Technical College to fire stations and police stations. 
If you go out into New Orleans and St. Bernard, you will see 
construction occurring from those public assistance dollars.
    Ms. Norton. So what happened, Mr. Garratt and Mr. 
Rainwater? This is some progress, $.8 million spent. What 
happened? How was the logjam broken?
    Mr. Garratt. There are a couple of issues here at play. One 
of them, obviously, is this unobligated--or this amount of 
funding that was obligated to the State but was not drawn down 
by subgrantees. In fact, the fact that there is several billion 
dollars in there doesn't necessarily indicate a problem. What 
it may indicate and what it does indicate is the State is doing 
its due diligence. This is a reimbursement program, so it 
doesn't immediately go to the State then immediately go to a 
subgrantee. They do work; they submit invoices; the State 
validates those invoices and then reimburses them for that. So 
there is a process involved.
    Ms. Norton. Wait a minute. I thought much of this had to do 
with a dispute between FEMA and the State.
    Mr. Garratt. Not in terms of the funding that has been 
obligated to the State.That funding is for projects that were 
approved, but it is up to the applicants to actually do the 
work on those projects and submit the paperwork to get 
reimbursement.
    Ms. Norton. That is an important clarification.
    Mr. Rainwater. What you are seeing, Madam Chair, is the gap 
is being filled. And remember we had a dispute over what 
dollars were owed to State, another piece that is just recently 
taking place, it is very positive, in the recovery school 
district in New Orleans, FEMA has agreed to what we call a 
quick-start reconstruction program that allows the schools to 
lump-sum $150 million and rebuild the way they need to rebuild 
back to a more efficient process.
    Ms. Norton. So there is a difference between the obligation 
of funds that have been approved and funds where there is a 
dispute between the State and the city. So, it is really 
progress, particularly in this recessionary climate, that at 
least the obligations have commenced.
    Now, how much in funding is still in dispute between the 
State of Louisiana and FEMA?
    Mr. Rainwater. That is approximately around $1 billion. And 
some of that relates back to the Charity Hospital dispute, 
which is half of that, which the dispute is over whether or not 
the building was damaged over 51 percent or more.
    Ms. Norton. How is that dispute being resolved, if at all?
    Mr. Rainwater. We just got through our first appeal. That 
appeal was denied by FEMA Region Six. We can now go to our 
second appeal, or there is conversation about using panel 
arbitration.
    Ms. Norton. All right. When we last met on this issue, it 
wasn't at the appeal level; it was at the primary decision 
area. I mean, appeals take time, and I want to know about that 
time in a moment, but it seems to me the issue that was most 
disturbing was at the initial dispute of how much. You can't 
appeal until one side or the other in fact takes a stand--and I 
guess, in this case, it would be FEMA, this is how much we are 
going to pay. At that point, you go to an appeal. I want to 
know at the "how much we are going to pay stage" are we?
    Mr. Garratt. $150 million.
    Ms. Norton. You see my issue; $150 million has been agreed 
upon. Now, that says to me--and I understand the position Mr. 
Garratt is in; his job is to husband the funds.
    Your job, Mr. Rainwater, is to get as much of the funds as 
possible.
    If we understand this as a structural problem, it won't be 
hard.
    As I understand after the last hearing, a number of 
different ways to just crack the nut, so it could go to appeal. 
We had discussions with Senator Landrieu's office, we had 
discussions with the American Arbitration Association. There 
was some understanding in Senator Landrieu's office about some 
administrative law judges.
    I had some concern about those, unless they were people who 
could resolve a dispute and weren't simply operating in an 
appeal mode. Has any of that come to your attention?
    Mr. Rainwater. Yes, Madam Chair, I have spoken with a 
number of Committee staff. And as I understand it, the panel 
arbitration piece hasn't been put together yet. There are a 
number of players at the State level in this project.
    There is some conversation about just going to the second 
appeal, because it does--under the new appeals process, it does 
allow for an oral appeal, and we can present additional 
information.
    Ms. Norton. Wait a minute, help me out, because I wasn't 
even at the appeal. The $150 million is the amount that 
interests me.
    Mr. Rainwater. Yes, ma'am.
    Ms. Norton. That has come out of the initial dispute 
negotiations. Now, part of what could happen here is that the 
slow-up may be because FEMA is, in fact, continuing to 
negotiate with the State at all. They could hasten an appeal 
just by coming down with numbers, one after another, and you 
will have to appeal it.
    So I take it at the dispute level, it is because somebody 
is negotiating with FEMA and that they are negotiating in good 
faith; is that true?
    Mr. Rainwater. Madam Chair, when we negotiated last year we 
went from 23 million to $150 million.
    So in our particular case, our particular client is LSU, 
the medical center of New Orleans, which is the new hospital to 
be built. If you look at the two studies that were done, we 
still believe it was $492 million.
    And so we feel like that the attorneys--and I am not an 
attorney--but the attorneys in our group feel like they have a 
case based off two studies we had done last year.
    Ms. Norton. But you see, you cracked the nut on that. I am 
not even--on that one, I have been less critical.
    It is the initial dispute, so we can get to appeal, and 
still we have most of the money there. We have the money that 
you have obligated. That is very important, because that 
meant--and correct me if I am wrong--that it was not held up as 
an initial dispute.
    That is money you have since obligated that FEMA had 
already signed on and that was included in the 3.6 billion 
and.8 billion of that has been obligated. All told, Mr. Garratt 
testified, is about a billion dollars still in the dispute 
stage--is that true--and 150 million of that has been--150 
million of that has gone down since we last met.
    Mr. Garratt. I think it was actually Mr. Rainwater who 
testified that he thought there was about a billion dollars 
worth of unobligated project worksheets that were still out 
there.
    Ms. Norton. So if it is unobligated, that means you have 
already approved it?
    Mr. Garratt. Unobligated, we still have a number of 
projects that we are still working through.
    Ms. Norton. I want to know how much in that number--that 
you are still working through--there are?
    Mr. Rainwater. That would be--when we last testified, it 
was about, we felt like there was about a 1.4 billion gap.
    Ms. Norton. In disputed amounts?
    Mr. Rainwater. In disputed amounts, yes, ma'am.
    Ms. Norton. All I am trying to do is figure out what we are 
doing with that.
    Mr. Rainwater. But that number is continuing to come down 
based off decisions that are being----
    Ms. Norton. It is $150 million, Mr. Garratt just testified.
    Mr. Rainwater. Yes, ma'am. And so what----
    Ms. Norton. How has that come down, since that was in 
dispute----
    Mr. Rainwater. We went from $23 million to $150 million, 
which was----
    Ms. Norton. What procedures were used to do that, please?
    Mr. Rainwater. Conversation.
    Ms. Norton. Well, I don't see any evidence of any new 
procedures in place. You are still haggling.
    Mr. Rainwater. However, Madam Chair, I will say that at the 
ground level, what FEMA has done and what we have done is put 
these decision teams in place, and they continue to work 
through. The Charity Hospital piece is being treated----
    Ms. Norton. How much of it is Charity Hospital?
    Mr. Rainwater. About 492 million. That is our disputed 
number.
    Ms. Norton. Okay, how about the rest of it, is projects 
under--what is it--500 million? They are smaller projects. 
There is a recession going on. Get some people to work. Why 
can't we get decisions on those?
    Mr. Rainwater. Yes, ma'am. That is what we are working on 
right now. I just said we just decided $150 million for the 
recovery school district.
    Ms. Norton. Did the decision team help in some way, and, if 
so, how?
    Mr. Rainwater. Yes, ma'am. The decision team sat down and 
worked through the issues.
    Ms. Norton. Who is on the decision team?
    Mr. Rainwater. Tony Russell is the Changes for Recovery 
Office; a gentleman name Bill Vogel, and a gentleman named 
Charlie Axton from FEMA.
    Ms. Norton. They are all from FEMA?
    Mr. Rainwater. Yes, ma'am. And then from the State we have 
a gentleman named Mark Riley, who is the deputy director; and a 
gentleman named Mark Debosier and a gentleman named James 
Clark, who sit down and work through these issues.
    We have a multitude of other folks underneath. But those 
are the folks that come together. I am brought in at particular 
points when there are very difficult decisions, and we work 
through it and make decisions together. So we are making 
progress on this. But it just takes time.
    Ms. Norton. Mr. Garratt, we were pleased when the new 
Secretary stationed these teams to be helpful.
    Are those people in Louisiana who are on the ground now the 
three people named by Mr. Rainwater?
    Mr. Garratt. They are.
    Ms. Norton. Could I ask you to do this? Congress went on 
its vacation, we anticipated we would be here this morning at 
least, but they went on the May 30 recess for a week yesterday.
    Would you make available to the staff those three people so 
that they can have an understanding--we would like to have 
confidence in that process. Because if we don't, then what we 
intend to do is to modify what Senator Landrieu put in place. 
That is already statutory law to, in fact, make decision-making 
occur.
    We can't stand it that there is almost a $1 billion out 
there that could be putting people to work in Louisiana. We 
understand the difficulty, nor are we criticizing you for 
simply not giving in to the State, nor the State for trying to 
get as much out of you as possible.
    We are saying this. This is a classic dispute where a third 
party--you are using a third party from within the agency--is 
almost surely, as a structural matter, going to have to put 
their foot down or else we just go on and on and on, and each 
side has to haggle itself out. He is under an obligation to get 
as much money from you as possible, and you are under oversight 
from us to make sure you don't give them any more than what 
they deserve.
    Whatever they get, they are going to complain about. This 
is classic third party; help us out.
    And we are not willing to go forward without knowing more. 
So could I ask you to make available to staff these three 
people to make us understand how this new process is working?
    Mr. Garratt. Our staff are always available to support you 
and your staff, Madam.
    Ms. Norton. We would expect to see them next week before 
Congress comes back in session.
    I want to thank all of you for, really, very helpful 
testimony that we have regarded as very problem-solving-
oriented. We believe we have gotten someplace. We are going to 
put it in writing so that you will see what we believe has 
resulted in commitments from this testimony and so that we can 
all track each other to make the best things happen for the 
people of Louisiana.
    Thank you again for your patience.
    [Whereupon, at 1:07 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
